<html>
<title> - [H.A.S.C. No. 115-61] AVIATION READINESS: WHAT'S THE FLIGHT PLAN?</title>
<body><pre>[House Hearing, 115 Congress]
[From the U.S. Government Publishing Office]









 
                         [H.A.S.C. No. 115-61]

              AVIATION READINESS: WHAT'S THE FLIGHT PLAN?

                               __________

                                HEARING

                               BEFORE THE

                       SUBCOMMITTEE ON READINESS

                                 OF THE

                      COMMITTEE ON ARMED SERVICES

                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED FIFTEENTH CONGRESS

                             FIRST SESSION

                               __________

                              HEARING HELD

                            NOVEMBER 9, 2017


                                     
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                                     
  
                                  ______

                         U.S. GOVERNMENT PUBLISHING OFFICE 

28-244                         WASHINGTON : 2018 




































                       SUBCOMMITTEE ON READINESS

                  JOE WILSON, South Carolina, Chairman

ROB BISHOP, Utah                     MADELEINE Z. BORDALLO, Guam
AUSTIN SCOTT, Georgia                JOE COURTNEY, Connecticut
STEVE RUSSELL, Oklahoma              TULSI GABBARD, Hawaii
MIKE ROGERS, Alabama                 CAROL SHEA-PORTER, New Hampshire
VICKY HARTZLER, Missouri             A. DONALD McEACHIN, Virginia
ELISE M. STEFANIK, New York          SALUD O. CARBAJAL, California
MARTHA McSALLY, Arizona, Vice Chair  ANTHONY G. BROWN, Maryland
SCOTT DesJARLAIS, Tennessee          STEPHANIE N. MURPHY, Florida
TRENT KELLY, Mississippi             RO KHANNA, California
MIKE GALLAGHER, Wisconsin
                Margaret Dean, Professional Staff Member
                Brian Garrett, Professional Staff Member
                         Danielle Steitz, Clerk
                         
                         
                         
                         
                         
                         
                         
                         
                         
                         
                         
                         
                         
                         
                         
                         
                         
                         
                         
                         
                         
                         
                         
                         
                         
                         
                            C O N T E N T S

                              ----------                              
                                                                   Page

              STATEMENTS PRESENTED BY MEMBERS OF CONGRESS

Bordallo, Hon. Madeleine Z., a Delegate from Guam, Ranking 
  Member, Subcommittee on Readiness..............................     2
Wilson, Hon. Joe, a Representative from South Carolina, Chairman, 
  Subcommittee on Readiness......................................     1

                               WITNESSES

Gayler, MG William K., USA, Commanding General, U.S. Army 
  Aviation Center of Excellence and Fort Rucker, U.S. Army.......     8
Nowland, Lt Gen Mark C., USAF, Deputy Chief of Staff for 
  Operations, Headquarters, U.S. Air Force.......................     3
Rudder, LtGen Steven R., USMC, Deputy Commandant for Aviation, 
  U.S. Marine Corps..............................................     6
Shoemaker, VADM Troy M., USN, Commander, Naval Air Forces, U.S. 
  Navy...........................................................     4

                                APPENDIX

Prepared Statements:

    Gayler, MG William K.........................................    58
    Nowland, Lt Gen Mark C.......................................    28
    Rudder, LtGen Steven R.......................................    47
    Shoemaker, VADM Troy M.......................................    35
    Wilson, Hon. Joe.............................................    27

Documents Submitted for the Record:

    [There were no Documents submitted.]

Witness Responses to Questions Asked During the Hearing:

    Mr. Wilson...................................................    71

Questions Submitted by Members Post Hearing:

    Mr. Brown....................................................    86
    Mrs. Hartzler................................................    84
    Mr. Wilson...................................................    75
    
    
    
    
    
    
    
    
    
    
    
    
    
    
    
              AVIATION READINESS: WHAT'S THE FLIGHT PLAN?

                              ----------                              

                  House of Representatives,
                       Committee on Armed Services,
                                 Subcommittee on Readiness,
                        Washington, DC, Thursday, November 9, 2017.
    The subcommittee met, pursuant to call, at 11:11 a.m., in 
room 2212, Rayburn House Office Building, Hon. Joe Wilson 
(chairman of the subcommittee) presiding.

  OPENING STATEMENT OF HON. JOE WILSON, A REPRESENTATIVE FROM 
      SOUTH CAROLINA, CHAIRMAN, SUBCOMMITTEE ON READINESS

    Mr. Wilson. Ladies and gentlemen, I call this hearing of 
the House Armed Services Committee Readiness Subcommittee on 
``Aviation Readiness: What is the Flight Plan?'' to order. A 
year ago, this subcommittee heard testimony from each of your 
services about the readiness levels of military aviation. 
Infrastructure challenges, underfunded spare parts, and depot 
backlogs were a consistent theme.
    Aviation readiness challenges do not stop at 
infrastructure--retention and training of critical skills from 
trained and experienced pilots to aviation maintenance 
personnel continues to plague the readiness recovery.
    All of these challenges are competing with no lessening of 
operational demand in the fight against global terrorism and 
with the increasingly aging and overused aircraft.
    Today I look forward to hearing about each service's 
aviation readiness, readiness recovery plans, readiness impacts 
to safety, and where we continue to take risk; calculated in 
terms of both risk to the force and risk to the mission.
    I fully believe that the first responsibility of the 
national government is to provide for the national security of 
its citizens--and that is especially true of our sailors, 
soldiers, airmen, and marines; therefore, it is our 
responsibility as members of this subcommittee to continue to 
better understand the readiness situation and underlying 
problems across aviation and then for us to map a course which 
best assists in correcting any deficiencies and shortfalls.
    And I am grateful to turn to the distinguished gentlelady 
from the territory of Guam, our ranking member, Congresswoman 
Madeleine Bordallo, for any remarks she may make.
    [The prepared statement of Mr. Wilson can be found in 
Appendix on page 27.]

STATEMENT OF HON. MADELEINE Z. BORDALLO, A DELEGATE FROM GUAM, 
           RANKING MEMBER, SUBCOMMITTEE ON READINESS

    Ms. Bordallo. Thank you very much, Mr. Chairman, and good 
morning to all the fine gentlemen that are here at the hearing 
today. And thank you for visiting with me so that I could 
become more acquainted with some of your challenges.
    I look forward to hearing about some of the problems that 
you face as an aviation community and hopefully an 
understanding on what the services are each doing and how 
Congress can support efforts to improve aviation readiness 
across the services.
    In 2016, we learned that shortfalls in our service aviation 
programs existed, from degraded maintenance capabilities to 
reduced training hours. And we began trying to address these in 
fiscal year 2017, the NDAA [National Defense Authorization 
Act]. Just as these conditions developed over time, it will 
also take time to build back readiness since these issues, of 
course, did not arise overnight.
    What we are continuing to remedy in the fiscal year 2018 
NDAA are the consequences of years' worth of high operational 
tempo, aging airframes, degraded aircraft conditions, fewer 
experienced air crews, and fewer skilled military and civilian 
personnel to maintain the aircraft.
    The services have responded by identifying the deficits and 
prioritizing personnel, training, maintenance, infrastructure, 
and logistic needs. And the committee has tried to support 
these efforts through budget authorizations and policy 
initiatives in the fiscal year 2018 NDAA.
    However, this committee is keenly aware that these efforts 
are rendered less effective by the continuing impacts of 
sequestration and unpredictable funding through continuing 
resolutions.
    When coupled with reductions in skilled personnel at 
aviation depots, severe challenges in obtaining spare parts for 
legacy systems, late and unpredictable funding due to multiple 
continuing resolutions, and the unrelenting operational tempo 
required by today's complex security environment, it is not 
surprising that we are dealing with readiness challenges.
    So the acquisition of newer aircraft and the modernization 
of our existing aviation systems may bring some relief to the 
stress of our high operational tempo. However, we must ensure 
there is an appropriate balance between rushing to buy new 
aircraft and ensuring that we continue investing in the 
operations and the maintenance of the legacy fleet.
    Providing more funding may help, but it is not always the 
answer. And it has become very clear that consistency and 
predictability in funding is more helpful than increased 
budgets.
    So I welcome this opportunity today to hear from each 
witness about the challenges that they face in their service to 
achieve and sustain aviation readiness and how we in Congress 
may be able to help.
    And I yield back, Mr. Chairman.
    Mr. Wilson. Thank you, Ranking Member Bordallo.
    In connection with today's hearings, I welcome the members 
of the full committee who are not members of the subcommittee 
who are or will be attending.
    For a unanimous consent request to permit non-committee 
members' participation, I ask unanimous consent that a member 
who is not a member of the subcommittee on the Armed Services 
be allowed to participate in today's hearing after all 
subcommittee members and then full committee members have an 
opportunity to ask questions. Is there any objection?
    Without objection, such members will be recognized at the 
appropriate time for 5 minutes.
    I would like to welcome all of our members and the 
distinguished panel of senior aviators present today. This 
morning we have with us Lieutenant [General] Chris Nowland, 
United States Air Force Deputy Chief of Staff for Operations, 
Headquarters United States Air Force; Vice Admiral Mike 
Shoemaker, the United States Navy, Commander, Naval Air Forces; 
Lieutenant General Steven Rudder, United States Marine Corps, 
Deputy Commandant for Aviation; Major General William Gayler, 
United States Army, U.S. Army Aviation Center of Excellence and 
Fort Rucker.
    General Nowland, we now turn to you for your opening 
remarks.

  STATEMENT OF LT GEN MARK C. NOWLAND, USAF, DEPUTY CHIEF OF 
       STAFF FOR OPERATIONS, HEADQUARTERS, U.S. AIR FORCE

    General Nowland. Chairman Wilson, Ranking Member Bordallo, 
and distinguished members of the Readiness Subcommittee, thank 
you for the opportunity to testify before you today on the 
state of aviation readiness across the United States Air Force 
and really this whole committee across the joint force.
    As I personally look back on this opportunity, I realize 
that only a privileged few get the chance to testify in front 
of our country's lawmakers, people with the power to make a 
difference. And I am excited that I can be here today to talk 
about a subject I am very passionate about, regaining full-
spectrum readiness for the United States Air Force.
    I look forward to discussing with you where we are today, 
steps we are taking to recover, and areas where you can support 
in order to regain full-spectrum readiness soonest.
    For 70 years, our 70th anniversary this year, the United 
States Air Force has provided decisive advantage to the 
warfighter in air, more recently space and cyber domains. Every 
hour of every day airmen support homeland defense, deter 
aggression from abroad, and provide a robust and reliable 
nuclear deterrent.
    However, we are quickly approaching an inflection point. 
Twenty-six years of continuous operations have taken a toll on 
the force and adversaries are beginning to close the 
technological gap.
    Today, our combat-coded units hover around 50 percent 
readiness rate to meet global demands, specifically for high-
end conflict against near-peer adversaries. In short, the Air 
Force is too small for what the Nation expects of it.
    The Air Force received $5.6 billion in the fiscal year 2017 
request for additional appropriation, and we spent it wisely. 
We were able to fund our top priority effecting readiness--
growing the force. The funding allowed us to recruit 4,000 
additional Active Duty airmen, which we are using to accelerate 
readiness recovery by getting our planes back in the air.
    We made investments in pilot production to address our most 
critical shortfall, and we outfitted our battlefield airmen 
with the latest equipment to make them more lethal.
    We upgraded our fleet's targeting capabilities and 
increased munitions production. Finally, we funded increased 
levels of accessions, enhanced network security, and repaired 
infrastructure serving as the backbone for readiness recovery 
efforts. These investments will arrest our readiness decline in 
several critical areas. But shortfalls remain in the near term.
    The President's budget for fiscal year 2018 lays the 
foundation to restore readiness and increase joint lethality. 
But most importantly, an approved budget with stable, 
predictable funding levels will build the bridge to the future.
    Continuing resolutions and a return to the Budget Control 
Act measures will reverse all the progress we have made to this 
point. With predictable budgets we can finally set the 
conditions necessary for the multiyear process of regaining 
readiness.
    Since 1947, the Air Force has relentlessly provided America 
with unmatched, decisive combat power in times of peace, 
contingency, and conflict. However, our advantage over 
potential adversaries is shrinking.
    Our Nation requires a ready and lethal air, space, and 
cyber force now more than ever. America expects it, combatant 
commanders require it, and with your continued support, the 
United States Air Force will regain full-spectrum readiness to 
ensure our warfighters have an asymmetric advantage in any 
conflict against any foe. Thank you very much.
    [The prepared statement of General Nowland can be found in 
the Appendix on page 28.]
    Mr. Wilson. General, thank you very much, and we appreciate 
your service so much.
    And we now proceed to Vice Admiral Shoemaker.

STATEMENT OF VADM TROY M. SHOEMAKER, USN, COMMANDER, NAVAL AIR 
                       FORCES, U.S. NAVY

    Admiral Shoemaker. Good morning, Chairman Wilson, Ranking 
Member Bordallo, and distinguished members of the subcommittee. 
I am honored to be here along with my fellow senior aviators to 
update you on the state of naval aviation readiness.
    In the next few minutes I will reinforce what I know will 
be a consistent theme from the four of us and was already 
echoed in the chairman's and ranking member's opening 
statements.
    As we talk about readiness and what it will take to dig out 
of the hole we are in, we appreciate your support in making our 
aviation forces whole again and putting us on a better path to 
support SECDEF's [Secretary of Defense's] mandate to increase 
lethality and remain ahead of peer competitors around the 
world.
    In my written testimony I mention Lemoore, California, our 
West Coast master jet base, as a microcosm for our broader 
readiness challenges. And I would like to use our recent West 
Coast carrier deployments as a call to action.
    We are meeting the combatant commanders' requirements for 
ready, lethal carriers and air wings forward, but at a 
tremendous cost to the readiness of our forces at home.
    For example, to get Carl Vinson, Nimitz and Theodore 
Roosevelt ready to deploy in January, June, and October of this 
year, and equip their embarked air wings with the required 
number of mission-capable jets, 94 strike fighters had to be 
transferred to and from the maintenance depots or between F-18 
squadrons on both coasts.
    This included pulling aircraft from the fleet replacement 
squadrons, where our focus should be on training new aviators. 
That strike fighter inventory management, or shell game, leaves 
non-deployed squadrons well below the number of jets required 
to keep aviators proficient and progressing toward their career 
qualifications and milestones, with detrimental impacts to both 
retention and future experience levels.
    Additionally, to get those air wings ready, several hundred 
parts had to be cannibalized from other Super Hornets across 
the force, further decimating the readiness of squadrons and 
adding significantly and unnecessarily to the workload of our 
maintainers.
    From a manning perspective, to fill gaps in those deploying 
squadrons and the 3 carriers, over 300 sailors had to be 
temporarily reassigned from other squadrons, have their orders 
changed or get extended beyond their normal sea tour lengths, 
which hurts our sailors and their families and has cascading 
effects on enlisted retention across the force.
    So what can we do to help improve readiness and quality of 
service? First, consistent, predictable funding that we can 
execute on 1 October is absolutely required.
    Then we must buy back the readiness we have lost from years 
of resource-constrained budgets. Some of it can't be recovered. 
It is corporate memory, like foundational flying experiences 
that we no longer have in a generation of pilots.
    Other readiness shortfalls, like the diminished stock of 
parts on our carriers and at our bases must be replenished. 
Pressurized budgets have forced us to make difficult tradeoffs 
to sustain the readiness of the current force, modernize that 
force to pace the threat, procure new aircraft with high-end 
capabilities and increased lethality, and add the critical 
manpower needed to operate and fight those forces and win, as 
our Nation expects us to do.
    My job as the Navy's air boss is to work as hard as I can 
to give our commanders the resources they need to focus on 
warfighting first, be ready to operate forward, and be 
successful when we ask them to sail or fly in harm's way. I 
hope I can count on your support to deliver that commitment.
    In closing, although we are carefully managing risks at 
home, I couldn't be more proud of the way our incredible 
aviators and sailors are performing with quiet professionalism 
and excellence at sea and ashore around the world today. Their 
service is making a difference for our Nation and we must do 
all we can to keep them ready.
    Thank you for the opportunity to be here today, and I look 
forward to your questions.
    [The prepared statement of Admiral Shoemaker can be found 
in the Appendix on page 35.]
    Mr. Wilson. Thank you very much, Admiral. We appreciate so 
much your service.
    General Rudder.

 STATEMENT OF LTGEN STEVEN R. RUDDER, USMC, DEPUTY COMMANDANT 
                FOR AVIATION, U.S. MARINE CORPS

    General Rudder. Chairman Wilson, Ranking Member Bordallo, 
distinguished members of the House Armed Services Subcommittee 
on Readiness and other distinguished members, I appreciate the 
opportunity to testify on the current state of Marine Corps 
aviation readiness.
    I would be remiss if I didn't wish everybody in the room a 
happy Marine Corps birthday. The Marine Corps continues to be 
the Nation's expeditionary force in readiness, and Marine 
Aviation is prepared to surge and fight anywhere you ask them 
to.
    As Deputy Commandant for Aviation, my focus is building 
readiness for combat. It is and it will continue to be my top 
priority. As we build readiness for combat, we will also 
balance modernizing the force, as well as fully investing in 
our maintenance base.
    We watch our ops [operations] tempo very carefully, and 
today we have multiple aviation units engaged around the globe. 
There are F-18s flying combat missions from the land, from 
aboard Navy aircraft carriers, and operating throughout Asia.
    Our V-22s stand ready for combat support of AFRICOM [U.S. 
Africa Command], CENTCOM [U.S. Central Command], and we have 
aviation combat elements operating on amphibious shipping 
throughout the world. We are also dedicated to helping our 
fellow Americans in time of need in support of disaster relief 
operations.
    This is in addition to our standing deployments and forward 
posture in the Pacific, where we currently stand ready to 
support our five allies and multiple partners.
    Since last year as our deployment-to-dwell has improved 
slightly from an average of 1:2 to 1:2.6, this means that last 
year and years prior we had marines deployed for 6 months, but 
they only had 12 months at home to get ready to deploy again.
    This year we are able to keep marines home for 
approximately 15 months, so they are able to gain about another 
3 months of readiness time. Again, minor improvements, still 
short of our target, which would be 6 months deployed and 18 
months at home to prepare for the next deployment.
    Thank you for your support for additional funds we received 
in fiscal year 2017. We have made moderate gains in readiness 
but still not where we want to be. Our readiness recovery 
strategy is built upon sustaining our legacy fleet while 
modernizing new aircraft, investing in our marines, and 
balancing funding into fully funding our readiness accounts.
    We are 43 percent complete with our transition of every 
squadron in the Marine Corps. In the past year, Marine Aviation 
has improved readiness by roughly 15 percent in our modern 
fleet and 10 percent in our legacy fleet.
    We are slowly adding aircraft to our flight line. However, 
we are still about 115 aircraft or about 20 percent short of 
where we want to be.
    On average, hours per crew each month increased by almost 2 
hours this year. In 2016 we were flying at 13.5 hours, roughly 
averaging per pilot. This year we are 15.4. Not where we want 
to be at 16.9, but a slight improvement nonetheless.
    A key part of our readiness recovery is focusing on our 
marines. We are investing in our maintenance marines who make 
it all possible. Last year we identified experience gap at some 
of our maintenance supervisory levers.
    Through an update to our MOS [military occupational 
specialty] manual, we are now tracking prioritized, advanced 
qualifications essential to those positions. Tracking these 
marines within squadrons ensures we keep the right maintainer 
in the right squadron at the right place.
    To further reduce the experience gap, we are offering an 
aircraft maintainer retention bonus to qualified marines that 
have those higher designations. Maintainers who accept the 
bonus remain in the squadron flight line for 2 years 
supervising and growing the next generation.
    To date we have about 350 marines that qualify for this and 
about 130 have accepted. So that is 130 marines distributed 
throughout the Marine Corps that are actually going to stay--
experienced marines that are going to stay in the squadron 
working on airplanes.
    Also this year for the first time since 2011, we are giving 
a pilot retention bonus.
    So now that we are adjusting our critical maintenance 
manpower we must invest in supply and depot throughput to 
support them. Our maintainers do not have enough parts on the 
shelves to sustain aircraft in the flight line. With Congress' 
help in 2017, again, we funded spares to maximum executable 
levels.
    In the 2018 budget request that is sitting over here, we 
have again funded to unprecedented levels. In the past, in some 
cases we have funded 25 percent where we are supposed to be; 
this year, between the Navy and Marine Corps, funding at full 
levels. We plan to continue this through the FYDP [Future Years 
Defense Plan] for both our legacy as well as our new airplanes.
    Supply depot improvements allowed us to return 30 Marine F-
18s to the flight line this year from the depot and reset 13 
long-term-down CH-53s. That may not seem like a lot, but out of 
those 13 airplanes came out we have flown over 2,000 hours in 
those airplanes. The 53s their hours have increased more than 
any other community in this past year.
    Finally, I would like to take this opportunity to briefly 
address aviation mishaps. It is our commitment that every time 
we operate an aircraft that it is certified safe for flight and 
ready for the demands we place on it.
    Historically, our mishap rates have been flat, but there 
was an increase in fiscal year 2017. And while there is no 
direct link between low readiness rates and high Class A 
mishaps this year, it has my fullest attention. There is no 
question--no question that naval aviation is an inherently 
demanding discipline, and we cannot discount second- and third-
order affects of low readiness and lack of training reps.
    Human factors and the pressure to be ready for the next 
deployment comes into play daily. Like any profession, the more 
you practice your trade the better you are at doing it. The 
true metric of health in aviation is aircrew flight hours. 
While we have increased our average flight hours last year, we 
are still below what is required.
    Ten years ago, a pilot averaged 16 hours per month. Today 
it is 15.4, but that is only part of it. Three years ago, 
typically 10 years ago during a 3-year rotation, typically a 3-
year rotation, those pilots averaged 20 percent more hours 
during that 3-years rotation than the pilots are today.
    Consider the data and add that to the current operational 
tempo. That combined with the challenging environments marines 
operate in, there is a marked difference between being current 
and being proficient.
    Conclusion for me is thank you, again, to this committee 
for all the help you have done over the years. Marine Aviation, 
we continue to improve but it is fragile.
    We need, as you would imagine, stable, predictable funding 
over time, and we need your help as you have in the past to 
fund those readiness enabler accounts and flight air programs 
to sustain the current slight upward tick in readiness.
    Recovery of readiness also means transitioning in new 
aircraft like the F-35 and the CH-53K as fast as possible in a 
fiscally responsible manner. Simultaneously, we are working 
hard to sustain, as you appropriately put out, our legacy 
aircraft.
    Mr. Chairman, distinguished committee members, we look 
forward--the Marine Corps appreciates everything you have done. 
We look forward to taking your question.
    [The prepared statement of General Rudder can be found in 
the Appendix on page 47.]
    Mr. Wilson. Thank you very much, General, and indeed, happy 
242nd birthday to the U.S. Marine Corps tomorrow.
    And we now proceed with General Gayler.

  STATEMENT OF MG WILLIAM K. GAYLER, USA, COMMANDING GENERAL, 
 U.S. ARMY AVIATION CENTER OF EXCELLENCE AND FORT RUCKER, U.S. 
                              ARMY

    General Gayler. Chairman Wilson, Ranking Member Bordallo, 
and distinguished members of the Readiness Subcommittee, thank 
you for the opportunity to appear before you today and address 
Army Aviation readiness.
    I am grateful to represent the Army leadership and the 
military and the civilian professionals and the courageous men 
and women of Army Aviation who steadfastly serve our Nation 
each day.
    Army Aviation has provided an unparalleled advantage to our 
Nation as a fundamental element of the joint force, and there 
is no doubt that aviation will remain an essential element of 
any combat in the future. However, force structure reductions, 
increased global requirements, funding uncertainty, and the 
requirement to train our forces to a higher level of 
preparedness raise concerns about the overall future readiness 
of Army Aviation.
    Aviation training is tough under any circumstances, 
however, to date, we assess that the fiscal environment, 
coupled with any atrophied maintenance skills or flight hours 
unexecuted have not manifested themselves as a result in 
aviation mishaps, which in fiscal year 2017 remained below the 
both 5- and 10-year averages. However, we watch them very 
closely and are still concerned.
    If current trends do continue however, particularly with 
reduced flight hour execution or funding and combined with a 
requirement to enter into a high threat environment, 
historically we do see a rise in aviation mishaps.
    However, the current fiscal environment and high demand for 
aviation do pose those challenges. Today's units are resourced 
to the platoon level proficiency, which is sufficient for the 
counterinsurgency operations that we have been in in the last 
decade and a half.
    However, to fight and win in increasingly complex 
environments against a more capable near-peer or a peer enemy, 
aviation units would be needed to be at a higher level of 
proficiency at higher echelons.
    As turbulence within aviation subsides we will ask for your 
continued support to assure sufficient resourcing to achieve 
that readiness.
    Readiness also has an equipping component. Aviation 
initiatives to sustain readiness and to meet global 
requirements have come at a cost to our modernization. Budget-
driven force structure reductions and the current fiscal 
environment have significantly reduced our budget over the past 
6 years and tests our ability to modernize our force and close 
key capability gaps with potential adversaries.
    In the near term, Army Aviation is working tirelessly to 
develop capabilities to ensure that we maintain a competitive 
advantage over any potential adversary. And in the midterm we 
must make very difficult decisions about our legacy fleet and 
about the future of vertical lift to ensure that we provide 
capability to ground commanders that they will need to fight 
and win on the future battlefield.
    The United States Army still retains the most modern and 
best-trained aviation force of its kind in the world, and our 
soldiers, noncommissioned officers, and our officers continue 
to serve this Nation faithfully.
    Army Aviation remains ready to meet any future challenge, 
no matter the complexity or the risk. Certainly stable, 
adequate, and predictable funding would enable us to transform 
into that more capable, lethal, and prepared force for the 
future.
    I thank each of you for your continued support to the 
outstanding men and women in uniform. And I appreciate the 
opportunity to testify today and equally look forward to your 
questions. Thank you.
    [The prepared statement of General Gayler can be found in 
the Appendix on page 58.]
    Mr. Wilson. Thank you very much, General Gayler, and we 
appreciate your first appearance before this subcommittee, and 
best wishes on your continued success.
    And beginning with General Nowland, a question I have for 
each person on the subcommittee will have 5 minutes, strictly 
maintained by Ms. Dean. And so we will proceed.
    The latest projections for rebuilding readiness are based 
on setting the conditions for readiness recovery. Could you 
please provide examples of the fragility of the recovery 
efforts, how fiscal year 2017 funding has shown results in 
recovering readiness, and how the fiscal year 2018 will further 
readiness recovery? Where are additional resources still 
required?
    General Nowland. Mr. Chairman, thank you for that great 
question. The 2017 RAA [request for additional appropriations] 
really helped the Air Force. We increased our spending in our 
flying hour program. We increased our spending in our weapons 
systems sustainment.
    We increased critical skills availability through people, 
through buying 4,000 more airmen that we could then put into 
it, and then the training resources, our ranges and simulators. 
We also increased spending in those areas.
    So those levers continue to move forward. The 2018 budget 
right now, if enacted, once we get the budget will be good for 
us. The Presidential budget continues to move it.
    The analogy that I would make is we have to grow the force. 
So along those paths, we still have areas of risk. We have a 
pilot-aircrew crisis. Our most highly stressed career field 
right now is AC-130 gunners. So it is just not a pilot crisis, 
but the pilots are our most critical shortage so we will 
continue to work through that.
    Our maintainers, we will continue to work to train our 
maintainers, to experience them so that they can go from three 
level to five level to seven level, which is from technician to 
apprentice to expert. And it takes a while to grow that force.
    Continued budgetary support will allow us to continue to 
close out in fiscal year 2019 and finish our maintenance and 
fill up our maintenance holes where we have there.
    Weapons systems sustainment, as we talked about just like 
the other flags told you, we have challenges. For the most 
part, our weapons systems sustainment is good.
    We are funded at 90 percent with a combination of base 
budget and OCO [overseas contingency operations], but we still 
need to improve, as you and I talked about, the delivery 
mechanism, the logistics is the key. How do we get our parts to 
the far-flung small fleets, such as RC-135s out at Kadena Air 
Base?
    Those would be the areas that the continued budget pressure 
will allow us to continue to move forward with, Mr. Chairman.
    Mr. Wilson. Thank you very much. And Admiral.
    Admiral Shoemaker. Thank you, Mr. Chairman. As we look at--
I think I will refer to Ranking Member Bordallo's comments in 
the beginning when she said we didn't get here overnight. It is 
gonna take some time to dig out of the readiness hole that we 
are in.
    As I look at fiscal year 2017, that was with the request 
for additional appropriations, that was a relatively good year 
for us in naval aviation in terms of the flying hour account 
and our readiness enabler accounts. But again, it was two-
thirds of the year our hands were tied a bit while we were 
still under the continuing resolution.
    In fiscal year 2018 both our flying hour account or our 
flying hour account and every one of our enabler accounts is 
plussed-up to levels beyond where it was in fiscal year 2017. 
That is goodness.
    The one area I would continue to focus, and I mentioned it 
in my opening comments, is in the spares, the APN-6 accounts, a 
critical enabler for us to continue recovering readiness.
    So the fragility you referenced, Mr. Chairman, I think we 
just have to have the continued sustained funding over time to 
get us out of the hole we have dug.
    Mr. Wilson. Thank you very much, Admiral. And General 
Rudder.
    General Rudder. Yes, thank you, Mr. Chairman. We have, 
similar with our partners within the naval aviation enterprise, 
have fully funded a lot of our accounts to our executable 
levels. And to give you an idea what that looks like, you know, 
in fiscal year 2016 for spares we are at 83 percent.
    For fiscal year 2017, with the additional money you gave 
us, we were able to get to 94, and with the budget that we have 
in now we are going to fund it at 96.
    Now, you know, predictable budget is always good because 
that allows our program managers to put those spares on 
contract. So the quicker we get the full budget, the quicker we 
can get those spares on contract.
    Some of the fragility of it is that as our ops tempo has 
not decreased, we must, one, balance our pilot production, 
which we are doing, and balancing our aircraft.
    And as an example, with our F-18 community, probably 2 or 3 
years ago, you know, we might have had five or six F-18s in the 
flight line, maybe 3 months before they were getting ready to 
deploy. And then we pull aircraft from the flight line, inject 
them into the squadron and deploy them.
    We reduced our squadron deployments down to 10 aircraft as 
a flight line entitlement. And recently to see some of the 
progress, although fragile, we deployed VMFA-251 into Asia with 
12 aircraft, and they are doing quite well with 10 out of 12 up 
on a regular basis.
    So there is some progress being made. Fully funding those 
accounts has been the key to success. Thank you.
    Mr. Wilson. And thank you very much.
    And General Gayler, you are finding out your first time 
here that time can be cut off, but for the record, we will give 
you that question and look forward to your response.
    But so that all of the members of the subcommittee can 
participate, we will proceed with Congresswoman Bordallo.
    Ms. Bordallo. Thank you very much, Mr. Chairman.
    General Nowland and Admiral Shoemaker, both the Air Force 
and the Navy have identified manpower shortfalls in the 
maintenance communities. Now, without a sufficient number of 
trained and experienced maintainers, you will have challenges 
generating ready aircraft to support pilot training and 
operations.
    So can you describe the actions that you are taking to 
address manpower shortfalls in the maintenance community? And 
assuming stable funding and how long will it take to fill these 
gaps? Do we see any of it presently or is it still in the 
future?
    General Nowland. Yes, ma'am. We are experiencing those 
problems. As I said, in our maintenance field we are growing 
4,000 maintainers in 2017 is what we are doing, and we expect 
to close out in 2019 to continue to fill those gaps.
    The other thing we are doing is we are moving maintainers 
where we can into combat-coded units. So for instance, as we 
stand up F-35 units, our training units, we are using contract 
solutions so that we can move our maintainers into the combat-
coded units. Then as we grow our maintenance and fill our 
maintenance manning, we will then come back and put blue-suit 
maintenance back into those organizations.
    But as they said, it takes a while to grow that capability 
to a three to a five to a seven level, ma'am.
    Ms. Bordallo. All right. Thank you. And also to you, 
Admiral Shoemaker?
    Admiral Shoemaker. Thank you, ma'am. So I think in the 
aviation ranks, at least in our overall accession program, in 
2017 we increased those accessions 32,000 to 35,200. That will 
take a while to get to the fleet.
    We are living off, I think the largesse of a fiscal year 
2013, a very good recruiting year. Those sailors are all now 
getting to the end of their initial tours and choosing to 
taking shore duty or choosing to separate.
    A couple things we have done to increase the experience 
level and the level of the maintainers in our fleet squadrons 
is a couple policy adjustments.
    One were contract extensions that we offered for sailors on 
sea duty. We had almost 1,000 take that for almost over a year 
each. So that is about 1,000 years of sea duty that we 
increased there.
    The other one was an extension to the high year tenure 
gates, the changes to the high year tenure gates. That also 
added about 1,000 years of sea duty into our squadrons.
    As best we can, we are also trying to recycle and reutilize 
aviation experience in the same type/model/series. So we avoid 
the training requirements and costs as they show up and 
transfer between squadrons. That is an initiative that is 
getting traction in Millington in our Personnel Command.
    The last one is I know in our fiscal year 2018 budget, our 
request is for additional accessions, and I think that will 
help us. It may take a little while to get to the fleet, but we 
will continue to work those policies in the meantime.
    Ms. Bordallo. Well, thank you very much. And my last 
question is to General Gayler. Can you share, General, with the 
committee how recommendations from the Holistic Aviation 
Assessment Task Force, which is directed by General Milley, has 
improved Army readiness?
    And can you highlight some of the recommendations that have 
been implemented or that you plan to implement in fiscal year 
2018 and how they will produce measurable readiness 
improvements?
    General Gayler. Yes, ma'am, thank you very much for the 
question. So of course, General Milley tasked Lieutenant 
General Mangum to conduct a holistic aviation task force 
assessment. He came up with 63 recommendations, of which 30 of 
them are completed to date and/or have a plan of action to 
complete. The remainder will be completed by the end of fiscal 
year 2018.
    Most significantly, really, are in the areas of doctrine 
development where we have to align our doctrine to better stay 
linked with a potential future battlefield and with the greater 
Army.
    Also in training we have made great strides in adjusting 
training to bring our forces to a higher level of collective 
training, which would be necessary on a future modern 
battlefield, to include UAS integration, unmanned aerial 
systems integration, and teaming with manned systems.
    Really a third area that is most significant is in the 
maintainer arena. We have some atrophied skills as a result of 
a few events in the past few years.
    So we are focusing very heavily on standardizing a 
maintainer training program, not only to get all maintainers to 
the requisite standard, but also to help further, kind of 
increase their maintenance knowledge. Certainly when they 
achieve a higher rank they would need that certain higher level 
of knowledge.
    So it has been very effective for us, and we look forward 
to completing it.
    Ms. Bordallo. Thank you very much, General. And I yield 
back, Mr. Chairman.
    Mr. Wilson. Thank you, Congresswoman Bordallo.
    And now we proceed to Congressman Austin Scott of Georgia.
    Mr. Scott. Thank you, Mr. Chairman.
    General Nowland, good to see you again. I talked with you a 
little bit about Moody Air Force Base and the A-29 Super Tucano 
training program, began there in 2015 with the Afghan Air 
Force, and I know it is been extended to 2020. Now we are 
training the Lebanese Air Force in a similar program.
    Can you explain how this program works within the overall 
strategy of the Air Force?
    General Nowland. Congressman Scott, great question, thank 
you, sir. This has been a model program, and this is in line 
with the Secretary of Defense guidance that our National 
Military Strategy is in, with, and through coalition partners 
and allies.
    So the Afghan A-29 program has been successful because what 
we have done is we have worked with our government to acquire 
those airplanes and the transfer those airplanes to the Afghan 
Air Force.
    Simultaneously, we brought Active Duty, Reserve, and Guard 
members in to train with the Afghan pilots to get them up to 
speed. And then we have supplemented them once they go into 
Afghanistan with air advisors who are with them taking them 
through their combat missions. We have seen it to be very 
effective in helping to train the Afghan Air Force.
    The Lebanese program is initiated right now. We have also 
done some work with the Lebanese Air Force to help them with 
facilities in Lebanon, and we are moving forward along the same 
model. Our chief believes this is a model of success for the 
future. We will try to continue to build on it.
    Mr. Scott. Okay. I agree with you. I mean, the coalition 
partners, the more assets that we can give them the better off 
we are gonna be. And some have asked how this actually helps 
with U.S. Air Force pilot training and the readiness for that. 
And could you hit on the point of how it decreases pressure on 
U.S. pilot capacity to carry out the sorties in these other 
countries?
    General Nowland. Well, great question again. So for 
instance in Afghanistan, if we have limited capability as we 
look across the region, and if we have an Afghan Air Force that 
can talk to the kandak down to the battalion level and do that 
close air support, that doesn't require F-16s overhead or an 
MQ-9 Reaper overhead. So therefore it is enabling them to be 
successful.
    We are also training their joint tactical air controllers 
so that they can control it so it becomes organic to the Afghan 
Air Force, which reduces the demand on our joint force.
    Mr. Scott. Thank you, General. You know, I have to mention 
the JSTARS [Joint Surveillance Target Attack Radar System] and 
the C2ISR [command and control, intelligence, surveillance, and 
reconnaissance] capabilities. We have all heard that we don't 
have enough of that capacity, and I just look forward to 
proceeding with the JSTARS recapitalization and certainly 
appreciate any support that any of you can give with us in 
filling that gap.
    General Gayler, graduate from North Georgia Military, I 
believe? Is that correct? The delayed risk in infrastructure 
has increasingly degraded aviation readiness.
    Last year, I had concerns about the aging maintenance 
hangars and support combat aviation units. We received the Army 
combat aviation hangar sustainment report, which detailed the 
get-well plan. Are we on track to meet the 80 percent adequate 
facilities rating no later than 2025?
    General Gayler. Sir, it certainly depends on levels of 
funding between now and 2025. We currently have nine Active 
Duty installations that have infrastructure needs that we rate 
as significant.
    And even above hangar facilities we have facility 
requirements for the prevention of corrosion on repair parts. 
In fiscal year 2016 we lost $16.2 million worth of repair parts 
just to corrosion alone.
    And so we are working that very hard to get a steady 
funding stream and priority to that infrastructure repair in 
all the installations, but also specifically for that corrosion 
prevention, which was another holistic task force review. And 
but we do have a lot of work left to do, sir.
    Mr. Scott. General, I have just a few seconds left, but 
specifically with regard to Hunter Army Airfield, can you 
update us on the hangar repairs there?
    General Gayler. I believe I can. We did have one hangar 
that was approved for improvement work beginning in 2022 to be 
complete by fiscal year 2024. The general support aviation 
battalion hangar that is part of that complex is the number one 
priority on FORSCOM's [United States Army Forces Command's] 
military construction priority list. So we are making some 
progress.
    Mr. Scott. Thank you, General. Gentlemen, thank you for 
your service. And I yield the remainder of my time, Mr. 
Chairman.
    Mr. Wilson. Thank you, Congressman Scott.
    Mr. Scott. Thank you.
    Mr. Wilson. We now proceed to Congressman Anthony Brown of 
Maryland.
    Mr. Brown. Thank you, Mr. Chairman. Let me start by saying 
that recently I visited with the 10th Combat Aviation Brigade 
from 10th Mountain in Powidz, Poland, and what those young men 
and women are doing is phenomenal.
    They are working interoperability issues with their 
counterparts. They are understanding the terrain. And I think 
they are really laying the groundwork for an enduring 
rotational, although one day I would like to see a permanent 
presence of Army Aviation in Europe.
    Doing a great job with the UH-60 and the AH-64. I graduated 
flight school in 1985. The Black Hawk had already been in the 
field for 6 years, and we were anticipating a year later the 
arrival of the AH-64.
    By 2030, the Black Hawk will have been in the field for 50 
years and the Apache for 45. I am sure we will be looking at 
those airframes with the same endearing love and affection as 
today we look at the UH-1, which was the workhorse of Vietnam.
    So my concern is, and my question, General Gayler, is the 
need to shift or at least broaden our focus from what today is, 
you know, short-term readiness to what needs to be more on the 
modernization of the force.
    We haven't heard much, I think, during this Congress, or at 
least I haven't been in hearings where I have heard much about 
the Future Vertical Lift program. Can you talk to us a little 
bit about that replacing the aging helicopter fleet?
    I understand production will start in 2030. And what are 
the impacts to Army Aviation modernization plans and programs 
under the current level of funding?
    General Gayler. So thank you, Congressman. First, in 
reverse, the current level of funding, we are certainly based 
on force structure that we now have as a result of budget 
realities, we are absolutely strapped to meet demand while 
simultaneously training for major combat operations at a higher 
level of readiness and then while balancing modernization.
    So it has kind of forced the Chief of Staff of the Army to 
prioritize readiness as the number one priority. So we will 
continue to ensure that we have ready forces now to meet the 
demand and for the future.
    You are correct. We have lost some modernization spending 
power over the next coming years. And we do have to make 
serious choices to invest in that capability.
    Where we have been left so far at the funding levels is 
incremental modernization. And there is a unique linkage 
between incremental modernization and readiness.
    In order to incrementally modernize our fleets, for example 
the AH-64s, we have to take existing airframes out of 
operational units to induct them into a remanufacture line to 
improve that airframe.
    That impacts readiness because we are taking aircraft from 
operational units on which they should be training. On average, 
across a 24-ship AH-64 battalion in authorization today, we 
average between 20 and 21 aircraft in the field because we are 
forced to incrementally modernize.
    We do have to change that. And the Future Vertical Lift 
program is looking at technologies right now that send a joint 
multi-role tech demonstrator that will conclude in fiscal year 
2019. That will inform what technologies are feasible to meet a 
capability requirement that we have on a future battlefield.
    And then we will aggressively pursue those capabilities as 
we move forward because we do have to maintain the legacy fleet 
viability though, because, as you stated, sir, I mean, these 
Apaches and these Black Hawks will be in our force for a long 
period of time. And we have to keep them viable.
    That is why other parts of modernization are critical to 
us, the Improved Turbine Engine Program to buy back power in 
those airframes, both the Apache and the Black Hawk, are 
critical.
    Now, if we have any CRs [continuing resolutions], that 
overall hurts our ability to work development efforts.
    Mr. Brown. And let me just----
    General Gayler. Yes, sir.
    Mr. Brown [continuing]. Take back my time, reclaim my time. 
Thank you very much. I am concerned about the increasing 
standoff that our forces are now facing, will be facing, and we 
need to make sure that we are improving both the lethality as 
well as the reach of our aviation assets.
    The next question, which I would expect I would get a 
response in writing because I am going to ask a question and I 
don't think with my time remaining you will be able to answer 
it, General Nowland.
    And it is a parochial question. I am in the Fourth 
Congressional District of Maryland. Joint Base Andrews is in my 
backyard.
    I am concerned about the replacement program, the Huey 
replacement program, and if you could give this committee 
assurances that the program will not face further delays and 
that it is on track for award in third quarter of 2018? And if 
not, why not and when?
    It is an old fleet. The Huey--surprised that some of them 
are still in operation--they are having difficulty performing 
their continuity operations, other base missions at Andrews. So 
if you could just give us an update on that program back 
through the committee staff or however that is most 
appropriate, Mr. Chairman.
    Mr. Wilson. And thank you very much, Congressman Brown.
    And we now proceed to Congressman Steve Russell of 
Oklahoma.
    Mr. Russell. Thank you, Mr. Chairman, and thank you 
generals for being here today. I guess my question would really 
be for all of you. With respect to flight hours, and General 
Rudder, thank you for talking about last year and this year, 
but could you give us just a brief thumbnail trend of what the 
average flight hours are currently per month for your pilots?
    General Nowland. Congressman Russell, across the United 
States Air Force our flight hours per month are going in the 
right direction. We are increasing them. Across the multiple 
different series that I have----
    Mr. Russell. Well, I know there are a lot of different 
airframes, but yes.
    General Nowland. It is hard. So but in our fighter 
community, trying to keep it apples-to-apples, we are averaging 
about 15.6 in our air superiority and right around 16 or so in 
our general purpose attack.
    Mr. Russell. Okay.
    General Nowland. And that really goes back to our readiness 
aircrew program, which ties simulators and flight hours 
together for their training.
    Mr. Russell. Interesting. Okay, thank you. Admiral 
Shoemaker.
    Admiral Shoemaker. Yes, sir. So I would say we are very 
close to that in aggregate across all type/model/series. The 
strike fighter community is a couple hours below. So about 15 
and a half across in aggregate and maybe a couple hours below 
that for VFA [strike fighter squadron].
    In just general trends if I look over time for the annual 
amount of hours, our TACAIR [tactical aircraft] communities 
have come down from around 250 a year to about right around 
190. So that is a drop from 2011 to 2017.
    Big wing, the MPRA [maritime patrol and reconnaissance 
aircraft], E-6s and P-8s are all have been fairly steady, same 
in our rotary force. So the trend is down on our TACAIR 
community.
    Mr. Russell. Okay. Thank you. General Rudder.
    General Rudder. Yes, thank you, Congressman. It is for our 
TACAIR community they are coming up. So for our F-18 community 
they are hovering around 12.7, not certainly at the 15-hour.
    Now, that is by the nature we do calculations, we take off 
one of our deployed squadrons over there. They are averaging 
from 40 to 50 hours per pilot----
    Mr. Russell. Sure----
    General Rudder [continuing]. A month.
    Mr. Russell. Operational deployment goes up.
    General Rudder. Because there is just--but when you average 
in a squadron that maybe just returned it is kind of getting 
themselves backed up on maintenance step. So we are still 
shooting towards 15. As talked about throughout the Marine 
Corps it is 15.4.
    We still want to get up to 16.5 hours, but there are a 
couple really glimmers of hope out there. And certainly with 
the CH-53, you know, our heavy lift community, they went from 9 
to 13 this past year. So that was a big step.
    Mr. Russell. Better.
    General Rudder. Yes. Thank you.
    Mr. Russell. Thank you.
    General Gayler. Sir, for the Active Component it is 10.8 
hours currently. For our National Guard it is around 6.4 and 
7.8 for the Reserve Component. What we try to achieve is 14.5 
hours per month per crew to reach a collective readiness level 
at the battalion level.
    We could achieve that in our UH and CH-47 fleets. The AH-64 
fleet is somewhat capacity limited because of shortages of the 
airframes and some of the pilots. Thank you.
    Mr. Russell. Thank you. And the other question I have is on 
pilot retention and pilot generation. I know there was a lot of 
hoopla made about maybe bringing retirees in, but really this 
authority was always available as I understand it to the 
services to recall folks that were retired if they needed to.
    Do you see an age gap developing because of accessions of 
new pilots and then trying to retain with incentives and other 
programs? If y'all could speak to that in the time I have 
remaining?
    General Nowland. Congressman Russell, we just received 
greater authorization to do it for a longer period of time. So 
we will be looking at that. I don't anticipate necessarily an 
age gap. The retirees we intend to bring back, number one, we 
will try to fill staff positions----
    Mr. Russell. Sure. Training----
    General Nowland [continuing]. Which would then allow our--
--
    Mr. Russell [continuing]. Training base maybe also or?
    General Nowland. Yes, sir. And then at training bases, in 
which case when you look at your instructor pilot they all look 
old to you, so, you know.
    Mr. Russell. Yes. Well, and I appreciate that because a lot 
of times, you know, you have captain instructors, which is not 
a bad thing. They are current. They are coming from the field. 
But I was curious on that, so thanks.
    Admiral Shoemaker.
    Admiral Shoemaker. So we heard about the Air Force 
initiative and actually looking at that in our production world 
as well, where we are trying to catch back up, certainly in T-
45s. Most of you all are familiar with the operational pause we 
took.
    In the general trend across the force, though, I think, you 
know, other than a couple of targeted communities, be it the F-
18 community and our Growler, advanced airborne electronic 
attack, we are meeting our department head requirements with 
quality.
    Mr. Russell. Thank you. General Rudder.
    General Rudder. As we look across our fleet, we expect 
about a 7 percent fleetwide departure rate on a yearly basis.
    Now, for our TACAIR community, much like Shoe just said, 
you know, we are up around 9.5, 9.9, with the average over the 
year about 9. So we have seen about a 1 percent, 1\1/2\ percent 
increase in this departure.
    So we are approaching it from all angles. We are 
approaching it from our ops tempo, readiness. As you would 
imagine, pilots want to fly. And when they are not flying they 
are not happy so we are trying to increase the readiness out 
there. And again, we are trying to give incentives to keep 
people in.
    But it is a concern. Obviously, when the economy is doing 
good, airlines are doing good, I think to include all the 
helicopter guys and gals out there, they are being approached 
on a daily and regular basis because there is other shortfalls 
out there with our airline partners.
    Mr. Russell. And Mr. Chairman, if I may with indulgence, I 
hate to leave my Army brother, you know, hanging in the wind. 
If he could answer that with your indulgence? Thank you, Mr. 
Chairman.
    Mr. Wilson. Please proceed.
    General Gayler. Thank you, sir, and I will be brief. Yes, 
sir. We have targeted specifically some of the more senior 
qualifications to remain in the operational fleet and we use 
heavily some Department of Army civilian-aged experienced in 
the institutions. So we watch it carefully.
    Mr. Russell. Thank you very much. Thank you, Mr. Chairman.
    Mr. Wilson. And thank you, Congressman Russell.
    We now proceed to Congressman Don McEachin of Virginia.
    Mr. McEachin. Thank you, Mr. Chairman. And thank you all 
for being here.
    General Nowland, would you be kind enough to discuss the 
intent behind the Air Force enterprise range plan [ERP], the 
potential benefits of the regional training range approach and 
what the Air Force hopes to achieve as the ERP process is 
completed?
    General Nowland. Congressman, great question, I would love 
to. We believe that the enterprise range plan will make us more 
efficient. So what we need to do is we need to look at our 
ranges holistically. Our ranges are national treasures, and so 
we have got to look.
    Right now the way we command and control them we don't 
create as many efficiencies as we think we can. So we believe 
by creating an enterprise range plan and pooling it together 
regionally we will be better coordinators with our sister 
services as we look at how we can possibly expand the ranges 
and increase investment also in our ranges.
    We have limited investment dollars. Where do we put the 
high-end simulators, into which ranges so we get the maximum 
training value out of every sortie we fly?
    Mr. McEachin. Thank you. And that is a nice segue into my 
next question to Admiral Shoemaker and General Rudder. Can you 
discuss the potential benefits to your services of the Air 
Force consolidating its six regional training ranges? Is there 
a potential to better leverage these ranges to improve training 
across all services?
    And can you also discuss the challenges each of your 
services face in acquiring technologies like threat emitters 
that allow your respective service air components to simulate 
advanced threats?
    Admiral Shoemaker. Yes, sir, thank you very much. As we 
merge the enterprise plan that General Nowland just described, 
our premier training range is obviously Fallon, Nevada.
    And as we introduce new technologies, we are clearly 
figuring out that the airspace limits and the electromagnetic 
spectrum limits are not allowing us to fly our new platforms to 
their full capabilities.
    So it is driving us into a virtual and constructive world 
and we have--moving out with that with a couple of key 
facilities in Fallon right now that will link to all of our 
fleet concentration areas, but certainly tie into our Air Force 
counterparts.
    As I talk about Fallon, one of the things we do, we do 
require, and you mentioned this, sir, were emitters. And the 
ranges out there are working with some very dated systems.
    So when we bring on our new electronic attack airplanes and 
certainly the F-35 to be able to practice and train against 
something more representative of the threats we might see is 
essential.
    Mr. McEachin. Thank you. General.
    General Rudder. Yes, thank you, Congressman. I would make 
as a general statement, our ranges in our airspace that we are 
able to operate in on a regular basis should be considered a 
national treasure.
    And anytime that we can increase the efficiency we should 
produce that and protect what we have and when able, when it 
makes sense, expand airspace, even with the crowded airways as 
we know them today.
    There are challenges. We are fortunate to be able to 
participate in great exercises like Northern Edge and Red Flag 
and operate out of Fallon so we--or China Lake or other areas 
around where we can take advantage of their first-rate threat 
systems that allow us to train at levels we need to train.
    And with the F-35 coming onboard on larger numbers, we will 
be challenged in the future to make sure that we have the 
amount of airspace to be able to train with that airplane, no 
doubt about it.
    And we have got to get very progressive on how we think 
about airspace and how we fight this airplane and how we fight 
the network within our range areas because there are competing, 
you know, communication bands out there we need to deal with 
and computing airspace requirements.
    So I would echo with all my counterparts here that range 
space is critical, and the more we think through this and make 
our ranges more complex and more progressive, it will help the 
joint force all the way around.
    Mr. McEachin. I thank each of you. Mr. Chairman, I yield 
back.
    Mr. Wilson. Thank you very much, Congressman McEachin.
    We now proceed to Congressman Salud Carbajal of California.
    Mr. Carbajal. Thank you, Mr. Chairman, and thank you to all 
the witnesses here today.
    Marine pilots remain short on average about one-third of 
their required flight hours. One-third of the Army's aviation 
force has been forward deployed at any one time over the past 
15 years. The Navy has extended deployments and shortened, 
eliminated, or deferred aircraft maintenance and training 
periods.
    The Air Force does not have enough experienced maintainers 
to sustain good quality aircrafts, not enough available 
mission-capable aircrafts to conduct operations, and airmen and 
airwomen are meeting the minimum training requirements for 
their deployment missions.
    We are not doing our part to keep our service members safe 
it seems. We are sending our sons and daughters into theaters 
of war without fully functioning equipment and inadequate 
training.
    This is unacceptable, obviously. We are willing to spend 
$1.2 trillion modernizing our nuclear arsenal, and yet we are 
unable to take care of more imminent essential matters, such as 
fixing our aircrafts, providing more flight time, time-
sensitive training, and modernizing aviation infrastructure.
    Are we really prioritizing readiness? Even under current 
budgetary constraints we should be providing our military with 
the most effective training, even if it means spending less or 
just not spending on something else. We can't spend on 
everything. Training should be a top priority.
    To what extent are the services evaluating the 
effectiveness of training to ensure that completed training 
meets its expectations for quality?
    General Nowland. Congressman Carbajal, great question. So 
for the United States Air Force we have made training a 
priority. It is a Secretary of Defense, so regaining readiness 
soonest means rebuilding your operational training 
infrastructure and funding your training lines.
    In the A-3 [Air Staff Operations division] we have stood up 
a whole training division, operational training infrastructure, 
led by two-star Major General Scott Smith, whose sole job is to 
come in and think about it every day and then advocate and work 
with our commanders to make sure we can improve our training 
capability.
    Admiral Shoemaker. Congressman, I think we have been fairly 
successful in at least what our CNO [Chief of Naval Operations] 
has talked about minimizing the extensions to deployments and 
trying to stay within his 7-month goal. And that has been the 
case so far, but obviously real world events will play into 
that.
    As we work our air wings and carriers up, we work through 
the Optimized Fleet Response Plan. And that right now, I think, 
is a good model for us to take the resources we are given, 
although we could certainly, as we have talked about earlier, 
do more as we are working up. But that gives us the ability 
with the resources given to generate the best capabilities for 
our forces moving forward.
    Now, we are accepting risk on the early parts of that 
workup cycle, but we make sure that as we get into the more 
integrated and advanced that we have got the resources they 
need, airplanes, people and flying hour dollars, ordnance to 
deliver so that our energies are focused on those next to 
deploy and on deployment. They are ready. They are certified. 
They are ready and certified forward.
    Mr. Carbajal. Thank you.
    General Rudder. Yes, I would echo what Shoe just said. It 
is the Commandant's priority to just to make sure that when 
forces go out the door on deployment that they are ready to go. 
And that may come at an expense of some of the remain-behind 
forces. That is where we get the challenge of a ready bench 
behind.
    But our forces before they go forward are given the 
appropriate workup time, and they do get certified before they 
go out each time.
    Back to another point you made, I think where we are trying 
to balance our readiness challenge is, you know, what we have 
done in the Marine Corps and I think all the services, we defer 
buying new airplanes or new stuff, if you will, to pull that 
money into our readiness account.
    So we are balancing both, the really new stuff for the 
capability we need for the future fight with making sure our 
readiness is right so when we do send marines and sailors out 
the door that they have the right gear at the right time at the 
right readiness level.
    General Gayler. Sir, I would echo that it is a balance 
certainly to meet demand and train for the future, assess your 
readiness for both and then to modernize. We take it very 
seriously.
    Certainly every aviator that deploys is incredibly 
competent to the resource levels that they are trained to and 
resourced for. And as we look to assess ourselves and know 
where that risk is, we actually measure our training readiness 
to a higher battalion level level of readiness called 
Objective-T so that we can see where we need resourcing and we 
can see where the risk is.
    Mr. Carbajal. Thank you. I yield back.
    Mr. Wilson. And thank you very much, Congressman Carbajal.
    And at this time we will proceed, and that is Admiral 
Shoemaker and General Rudder, I have a question for the record 
that I would like for you to get back to the subcommittee.
    In February, the Vice Chief of Naval Operations, Admiral 
Bill Moran, testified that 62 percent of F/A-18 aircraft were 
out of service. Over 50 percent of the out-of-service aircraft 
were simply awaiting maintenance or parts.
    In this committee report accompanying the House National 
Defense Authorization Act for Fiscal Year 2018 there was 
express support for an alternative source contract for F/A-18 
depot-level maintenance.
    Such alternative sourcing ensures competition, best value, 
and sustainment to be an effective competitive industrial base. 
We have also encouraged the Navy to meet the contract's maximum 
authorization within each year of the contract.
    What assurances can you provide that the Navy plans to 
maximize the number of aircraft authorized by the existing 
alternate source contract for each year going forward and 
supported by this subcommittee in the NDAA report? What are the 
Navy's plans to establish a multi-source competitive 
environment for the F/A-18 depot-level maintenance?
    [The information referred to can be found in the Appendix 
on page 71.]
    Mr. Wilson. And again, as we conclude, and it is always a 
delight to be serving with our Ranking Member, Congresswoman 
Bordallo.
    We want to thank General Nowland, Admiral Shoemaker, 
General Rudder, General Gayler. Again, congratulations on your 
first appearance here, for being with us today, and again, 
happy 242nd birthday. Thank you for your service and thank you 
for your personnel for your service to our Nation.
    And we are adjourned.
    [Whereupon, at 12:15 p.m., the subcommittee was adjourned.]



      
=======================================================================




                            A P P E N D I X

                            November 9, 2017

      
=======================================================================


              PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                            November 9, 2017

=======================================================================

      
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


      
=======================================================================


              WITNESS RESPONSES TO QUESTIONS ASKED DURING

                              THE HEARING

                            November 9, 2017

=======================================================================

      

             RESPONSES TO QUESTIONS SUBMITTED BY MR. WILSON

    Admiral Shoemaker. [No answer was available at the time of 
printing.]   [See page 22.]
    General Rudder. This response is a coordinated Navy/Marine Corps 
team effort and is closely aligned with VADM Shoemaker's response. 
There is one additional depot effort to increase readiness not only for 
F/A-18 but also for all Marine Corps aircraft. The L-3 depot in Canada 
is being utilized to the maximum extent possible. There are currently 
11 aircraft in-work at L-3 Canada. As of November 2017, one aircraft 
has been completed (Drive-In Mod work) and three high-flight-hour (HFH) 
aircraft are scheduled to complete in FY18. The assigned depot workload 
is coordinated between PMA-265 and CNAF (N421) and takes into account 
legacy requirements and the L-3 depot's contractual capability. The 
Legacy divesture effort greatly reduced the number of legacy hornets 
required to go through the depot. The health of our strike fighter 
fleet is a top priority within the Navy and Marine Corps, and the 
health of our industrial base is key to enabling us to achieve our 
readiness objectives. Workload is assigned to the organic and 
commercial depots following close coordination with Commander, Naval 
Air Forces and HQMC, based on current requirements and the depots' 
capacity to complete the work. Existing contracts with commercial 
depots have been performing as expected. There are currently 61 
aircraft in work, and we expect approximately 77 completions throughout 
the remainder of those contracts. As a result, the backlog that 
previously existed (and which necessitated the use of commercial depot 
contracts) has been eliminated, with all aircraft inducted into the 
workflow. Recent reductions in the overall requirement, enabled by 
combining depot events (e.g. HFH inspections with Planned Maintenance 
Interval events), and the steady increase in capacity at organic Fleet 
Readiness Centers, have reduced the requirement for follow-on 
commercial contracts for F/A-18A/B/C/D depot-level maintenance since 
the forecasted requirement can be covered within existing organic depot 
capacities. The Department of the Navy is pursuing several other 
efforts to increase readiness and retain a healthy industrial base, 
including: Preparation of a competitive depot support solicitation for 
Fleet Logistics Center, Yokosuka, Japan, to help meet the requirements 
of forward deployed units. With a planned fiscal year 2019 award, the 
contract will have a base year and four one-year options. The work 
scope will be to perform approximately 11 depot inductions per year, 
for any F/A-18 type/model/series aircraft, and will include Planned 
Maintenance Interval activities, In-Service Repair, and aircraft 
modifications. Utilization of a Multi-Service Management Agreement 
(MSMA) for Contract Field Teams (CFT), an Indefinite Delivery/
Indefinite Quantity (ID/IQ) contract managed by the Air Force. Under 
this competitive contracting approach, approved vendors compete for 
individual task orders, providing CFT to augment squadron and depot 
maintenance efforts to work down the backlog of aircraft awaiting 
maintenance and/or in-service repairs. CFT can provide on-site 
organizational, intermediate/field, and depot/sustainment level 
maintenance support at customer locations both in the continental 
United States, and abroad. This contract also includes Small Business 
set-aside requirements. This effort will be competed among six large 
business offerors using the Fair Opportunity Notice methodology 
outlined in the basic contract. Task orders requiring more than 100 
Full Time Equivalent personnel are awarded to large businesses. 
Engagement with the U.S. Army, Communications-Electronics Command 
(CECOM), to use their R2-3G ID/IQ contract. The R2-3G contract provides 
access to 18 prime contractors and 1,100 sub-contractors. The 
contractors provide services including: technology insertion; system 
integration and installation; fabrication and prototyping; testing and 
certification; studies and analyses; and engineering, logistics, and 
training support. These services can be utilized in support of 
operational maintenance, repairs, preservation, and depot maintenance, 
and are a potential force multiplier for our overall readiness 
activities. Supporting a new Depot Readiness Initiative (DRI). This 
initiatives objective is to aid in the ability to more quickly return 
post Phased Depot Maintenance (PDM) aircraft to a flyable--mission 
capable status after its return to the Squadron. To achieve this end-
state, this effort will utilize the available Depot capacity to 
complete some tasks that are typically organizational level maintenance 
requirements, while the aircraft is in their specific PDM event. We 
believe this initiative will save time, while increasing both 
efficiency and readiness. This effort will begin with F/A-18 (A-D) with 
the intent to expand to all type model series aircraft in the Marine 
Corps. In closing, the Marine Corps is committed to utilizing all 
options to ensure F/A-18 readiness to support our COCOM and MAGTF 
Commander requirements, and remain committed to retaining a healthy 
industrial base.   [See page 22.]


      
=======================================================================


              QUESTIONS SUBMITTED BY MEMBERS POST HEARING

                            November 9, 2017

=======================================================================

      

                   QUESTIONS SUBMITTED BY MR. WILSON

    Mr. Wilson. It is my understanding that the Air Force intends to 
move its current government-owned contractor-operated (GOCO) J-85 
engine repair facility from Laughlin AFB to a ``to be determined 
contractor-owned contractor-operated (COCO) facility'' in late 2019. 
Please explain the rationale for constituting a new J-85 repair 
facility at significant cost, during a pilot production crisis for an 
airframe that is scheduled to begin being taken out of inventory in 
2024. Specifically, how does this solution address existing identified 
problems related to availability of government furnished parts and 
components, as well as ongoing engine transportation issues? Lastly, 
please let the committee know if the Air Force has studied the 
potential negative impacts of relocating the primary engine repair 
facilities for T-38s while it is confronted with significant pilot 
production shortfalls.
    General Nowland. Overview: The J85 engine has been plagued with low 
time removals and poor reliability, resulting in negative impacts to 
engine availability. The USAF's acquisition strategy is based on 
securing the services of an experienced Engine Maintenance, Repair, and 
Overhaul (MRO) contractor to improve engine reliability and 
availability to meet current and future pilot production requirements.
    Extensive market research indicates performing the workload at a 
contractor owned facility will create a competitive environment amongst 
experienced engine MRO contractors resulting in the best value for the 
USAF's requirement. Market research also indicates no competitive 
engine MRO contractor environment exists if the workload remains at 
Laughlin AFB. Historically, the vendors who have competed for the 
workload at Laughlin AFB are labor service providers--not engine MRO 
contractors.
    Q1. Please explain the rationale for constituting a new J-85 repair 
facility at significant cost?
    A1: Based on the USAF's cost estimate for engine MRO services at a 
contractor owned facility, we anticipate the price per engine to be 
roughly double the cost of a labor services contractor at a government 
owned facility. This estimate includes the initial start-up costs, 
spread through the contract period of performance. Direct cost 
comparisons are misleading, however, as the requirements between the 
current and future contracts are not the same and the costs of the 
government owned facility are not included in the current contractor's 
costs. Because the past strategy of using labor service contractors to 
conduct on-condition maintenance has resulted in extensive low time 
removals and poor reliability, the USAF developed the current strategy 
to use an MRO contractor with a focus on reliability centered 
maintenance to improve engine availability at a time of increased pilot 
production. Extensive market research indicates performing the workload 
at a contractor owned facility will create a competitive environment 
amongst experienced engine MRO contractors resulting in the best value 
for the USAF's requirement. Market research also indicates no 
competitive engine MRO contractor environment exists if the workload 
remains at Laughlin AFB.
    Q2. Please explain the rationale for constituting a new J-85 repair 
facility during a pilot production crisis for an airframe that is 
scheduled to begin being taken out of inventory in 2024.
    A2: Air Education and Training Command (AETC) intends to fully 
divest the T-38 by the early 2030s. However, Air Combat Command, Air 
Force Materiel Command, NASA, and the USN will continue to fly beyond 
that date. Additionally, Foreign Military Sales countries, which 
represent the largest J85 users in the world, can also leverage this 
contract to address their engine overhaul requirements. Consequently, 
J85 engine support will be required beyond AETC's divestment in the 
early 2030s. AETC's intention to cease T-38 operations further 
substantiates the movement of this workload out of an AETC operated 
facility for the remaining J85 user community. The USAF does not have a 
cost savings analysis but has considered cost in its strategy. 
Accordingly, competition, contract incentives, and increased engine 
reliability are elements in the USAF's strategy to minimize costs. 
Further, direct cost comparisons are misleading as the requirements 
between the current and future contracts are not the same. Overall, the 
USAF's objective is to improve engine reliability and availability to 
meet current/future pilot production requirements at the best value. To 
ensure the most reliable, available, and affordable engine is made 
available for all warfighting customers, the USAF intends to secure the 
best value outcome from an MRO contractor through the power of 
competition.
    Q3. Specifically, how does this solution address existing 
identified problems related to availability of government furnished 
parts and components, as well as ongoing engine transportation issues?
    A3: Engine transportation scheduling issues are not adversely 
affecting production at the Engine Regional repair Center. However, 
market research indicates engine MRO service providers interested in 
competing for this workload are located in urban/industrial areas, 
where transportation is readily available. Further, the FY15-FY17 
average J85 engine non-mission capable for supply (ENMCS) rate is 5%, 
well below the Chief of Staff of the Air Force established requirement 
of no more than 20%. While supply can limit production, rates at this 
level do not explain the engine backlog or lack of production at the 
ERRC when compared to other comparably supply constrained fleets. 
Unlike labor service providers, engine MRO providers are well 
experienced in supply mitigation practices, including reuse and repair 
of parts, cannibalization of parts between engines, implementation of 
reliability centered maintenance, robust supply forecasting practices, 
etc. Additionally, requiring and incentivizing increased reliability 
from an engine MRO contractor will keep engines on wing and in the 
field longer, reducing the aggregate supply burden and ensuring current 
and future pilot production requirements are met.
    Q4. Lastly, please let the committee know if the Air Force has 
studied the potential negative impacts of relocating the primary engine 
repair facilities for T-38s while it is confronted with significant 
pilot production shortfalls.
    A4: To minimize transition risk, AETC has already increased the 
annual production requirement to provide additional spare engines, and 
alternative sources of engine repair will be used as needed. 
Additionally, the USAF's strategy calls for the winning bidder to 
continue operations at Laughlin AFB for a year, allowing establishment 
of J85 expertise and an orderly transition of both equipment and 
personnel to the contractor facility without delaying repairs or 
impacting pilot production.
    The increase in reliability of J85 engines resulting from the use 
of an MRO contractor will enable current and future T-38 pilot 
production requirements to be met. Conversely, the past strategy of 
using labor service contractors to conduct on-condition maintenance has 
resulted in extensive low time removals and poor reliability, 
negatively impacting engine availability and driving USAF's current 
strategy to use an MRO contractor with a focus on reliability centered 
maintenance.
    Mr. Wilson. Please discuss the current status of Class A, B, C 
mishap rates, underlying causes, trends observed in aviation safety and 
your observations on readiness impacts to mishaps? What steps are you 
taking to mitigate readiness impacts on aviation safety? Indications 
are that Class C/Ground mishaps are on a sharp incline, what actions is 
your service taking to address this increase and are there any early 
indications of common factors?
    General Nowland. Any damage or injury to Air Force equipment and 
personnel could have potential readiness impacts; however, lack of 
readiness has not been correlated to causality in aviation mishaps. 
Overall trends from FY13 through FY17 highlighted compliance and 
decision-making as trend items in both Class A and B aviation mishaps.
    Mitigation strategies to address these trends include continuous 
messaging from HQ Air Force and Major Commands as well as targeted 
recommendations to improve guidance, technical orders, training, and 
oversight of flight and flight line operations. In addition, since FY13 
the Air Force implemented 6,941 aviation safety investigation 
recommendations and is currently working towards implementing 2,055 
additional safety investigation recommendations.
    The following table illustrates the last 5 years of AF aviation 
safety mishaps:

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    The following tables illustrate the underlying causes of Air 
Force aviation Class A and B mishap investigations FY13-17 (note: 
mishaps may have more than one cause):

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    

    During the period FY 2013-2017, both on- and off-duty ground 
Class C mishaps actually decreased in the Air Force (see table below). 
Off-duty mishap counts decreased 21% and on-duty mishap counts 
decreased 24%. These decreases occurred steadily over the 5-year 
period, suggesting that the decrease is not due to any one factor, and 
is not a statistical fluctuation.
    Since both on- and off-duty mishaps are reportable, the causes and 
risk factors in ground mishaps vary greatly. The Air Force has pursued 
the following recommendations based on analysis of injury types and 
methods:
    <bullet>  Head protection for maintenance personnel--first in 
hangars and then on the flight line
    <bullet>  Stronger fall protection at all locations
    <bullet>  Buddy lifts, hoists and other mechanized lifts to 
decrease lifting injuries

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


Mr. Wilson. Please discuss the current status of Class A, B, C 
mishap rates, underlying causes, trends observed in aviation safety and 
your observations on readiness impacts to mishaps? What steps are you 
taking to mitigate readiness impacts on aviation safety? Indications 
are that Class C/Ground mishaps are on a sharp incline, what actions is 
your service taking to address this increase and are there any early 
indications of common factors?
    Admiral Shoemaker. [No answer was available at the time of 
printing.]
    Mr. Wilson. In July, a Marine Corps KC-130T crashed during a 
routine flight, killing fifteen Marines and one sailor. The Navy and 
Marine Corps immediately grounded all ``T'' model aircraft--23 Navy and 
12 Marine Corps planes--while investigators determined the cause of the 
crash. I understand that most, if not all, of these aircraft are still 
grounded and that their return to operational status is being hindered 
in part due to limited maintenance capacity. It's our understanding 
that the services have had to shift work among maintenance facilities 
and personnel to accommodate the introduction of the Joint Strike 
Fighter into their fleets. As a result, some older platforms--like the 
C-130--must rely on a single source for maintenance and repair work. 
While I understand that routine, planned and priority aircraft often 
receive adequate support, relying on a single source can understandably 
make it far more difficult to handle work of an unscheduled or 
unpredictable nature--particularly when the maintenance facilities and 
personnel are already facing a full load of regular-scheduled work 
under increasing operations tempo. Please provide a status update on 
maintenance and repair work for the Navy C-130 and Marine Corps KC-130 
fleets.
    Admiral Shoemaker. [No answer was available at the time of 
printing.]
    Mr. Wilson. In light of a situation wherein certain work can 
currently be performed at only one location, what steps is the Navy 
aviation community taking to ensure that unscheduled and unpredictable 
work can be completed as quickly as possible? If industry can offer 
additional capacity in times of great need, do you see opportunities 
for the Department of the Navy to leverage this capability to address 
unscheduled maintenance and repair work, which would in turn enable the 
current organic depots the ability to focus on its routine, planned and 
priority aircraft?
    Please address the current and forecasted impacts to Navy, Marine 
Corps, Navy Reserve, and Marine Corps Reserve aviation readiness due to 
the grounding of the C-130 fleet and timeline to effect the required 
repairs.
    Admiral Shoemaker. [No answer was available at the time of 
printing.]
    Mr. Wilson. Please discuss the current status of Class A, B, C 
mishap rates, underlying causes, trends observed in aviation safety and 
your observations on readiness impacts to mishaps.
    General Rudder. As I testified before the HASC-Readiness committee 
on 9 November 2017, while there is no single, direct link between low 
readiness rates and high Class A mishaps this year, it has my highest 
attention. There is no question that naval aviation is an inherently 
dangerous discipline, and we cannot discount the second and third order 
effects of low readiness and lack of training repetitions. Every mishap 
is unique. The Marine Corps conducts thorough investigations to learn 
from each mishap and attempt to prevent future mishaps. Our aircraft 
are safe and our training and readiness manuals are refined to ensure 
that aircrew meet prerequisites for demanding flights. 15 years of war 
has not led to a rise in severe mishaps. The Marine Corps averaged 12.6 
class A mishaps per year (a rate of 3.3) from FY02-06, 7.5 class A 
mishaps per year (a rate of 1.9) from FY07-FY11, and 8.8 class A 
mishaps per year (a rate of 3.0) from FY12-FY17. Unpredictable funding, 
late budget allocations, and a habitual pattern of relying on 
Continuing Resolutions continue to have a significant negative impact 
on training, force generation, and readiness. Additionally, the effect 
of inconsistent funding will likely have an even greater toll on 
procurement of future systems, which creates uncertainty for future 
readiness. Gaps in funding require leaders to make hard choices to 
prioritize manning, equipment transfer, and application of training 
dollars. I prioritize support to the operationally deploying units to 
the detriment of force generation and unit level training. Lost 
training time, and regaining readiness generation for skilled aircrew 
cannot be accomplished without additional resources in the future. 
Taking assets and funding away from other portions of the Fleet to 
ensure that deploying elements have everything they need creates 
preventable risk. Unpredictable funding creates a climate where 
commanders have to choose between requirements, rather than choosing 
the order in which to accomplish all requirements. As I testified to 
before, these risk choices have a ripple effect on many facets of 
readiness for units, which will continue for years.
    Mr. Wilson. What steps are you taking to mitigate readiness impacts 
on aviation safety?
    General Rudder. Flight hours are the ultimate metric for a well-
trained, disciplined, professional force. Flight hours are measured in 
hours per crew per month and form the foundation for aircrew to fly our 
training plan and be a ready force. A healthy squadron is able to build 
readiness for combat by properly maintaining aircraft, and by building 
aircrew proficiency through flight hours and realistic training. Flying 
anything less than the training requirement jeopardizes readiness. 
There are several prioritized initiatives Marine Aviation implemented 
as part of our comprehensive readiness recovery plan.
    Properly-funded enabler accounts: In PB18, the Marine Corps funded 
its readiness enabler accounts to the maximum executable and 
unprecedented levels. For example, from 2007 to 2016 our spares 
accounts were funded to 76%; in PB18 we increased this to 96%. However, 
CRs continue to prevent us from realizing the benefit of this 
increase--we can't make long-term investments, increase production 
rates or start new programs until we have full-year funding.
    Manpower Initiatives: Healthy readiness is generated from properly 
resourced aircraft maintenance and sufficient aircrew flight hours. 
None of this is achievable without a well-trained and experienced 
aircraft maintenance force; therefore, we are heavily investing in 
enlisted maintainers to rebuild a healthy and effective maintenance 
base. Talent preservation is a critical part of this equation for 
Marine Aviation to improve readiness. Last year, we identified an 
experience gap at some of our maintenance supervisor levels as a 
byproduct of the most recent force reduction. In FY18 the Marine Corps, 
for the first time, has initiated an ``Aircraft Maintainer Kicker'' as 
part of a Selective Retention Bonus to retain our most highly-qualified 
and experienced maintainers. To date, 447 eligible Marines have 
accepted the retention bonus--that's 447 highly-qualified aircraft 
maintainers who are on the flight line TODAY that otherwise would not 
have been (e.g. PCS move, separation, etc.). In addition to this, we 
are exploring an adjustment to the overseas tour lengths to ensure 
forward-deployed units have the right people in the right place.
    Maintenance Initiatives: A key initiative is to utilize the depot-
level to help reduce the maintenance burden in our operational units. 
This initiative will help optimize the maintenance workload between the 
depot-level and unit-level maintenance schedule (beginning with the 
legacy F/A-18s) in order to allow the operational unit to focus their 
efforts on its properly apportioned aircraft inventory. Depots will 
begin performing more organizational-level maintenance (e.g. phase 
inspections, technical directives, etc.) at the depots to ensure when 
aircraft return from the depot the aircraft can be inspected and 
returned to the flight schedule sooner. The Marine aircraft maintainer 
will be the true benefactor of this initiative because this allows the 
unit-level maintainers to properly maintain their assigned aircraft on 
their flightline rather than devoting excessive maintenance-man-hours 
to a post-depot aircraft that typically takes many months to return 
back to the training schedule.
    Supply Initiatives: Supply of parts has been a challenge to Marine 
Aviation readiness. In an effort to make our process proactive and gain 
efficiency, we are adopting an Air Force supply program (Customer 
Oriented Leveling Technique/Proactive Demand Leveling--or COLT/PDL) 
that is designed to stock more parts in both depth and breadth. The 
current Navy/Marine system uses demand analysis for allowancing 
management, while COLT uses marginal analysis to determine the most 
advantageous composition of stock allowances to reduce total number of 
backordered parts over time. Using COLT/PDL, when a part breaks, it 
will generate an allowance increase for all end-use supply locations 
simultaneously--regardless of where the part was physically needed. In 
practice, when one supply center orders a specific part, that same part 
is preemptively ordered for ALL supply centers, rather than wait for 
the same part to break on a different aircraft in a disparate location. 
Performance-based logistics (PBL) contracts is another method being 
applied on a limited-basis for explicit repairable components (e.g. 
gearboxes, rotor blades, drive-train components) with certain type/
model/series aircraft. In essence, we pay ``up-front'' for a definite 
parts availability rate (e.g. 95%) from the vendor. PBLs benefit the 
customer by incentivizing the vendor to improve component reliability, 
or, at a minimum, improve its availability in the system, thereby 
enabling increased readiness.
    Mr. Wilson. Indications are that Class C/Ground mishaps are on a 
sharp incline, what actions is your service taking to address this 
increase and are there any early indications of common factors?
    General Rudder. These ground-related mishaps are preventable and 
require the attention of all professional aviators and maintainers. 
During FY17 there were more than 70 aviation mishaps reported to 
Headquarters Marine Corps. More than 50 of these were Class C mishaps, 
many of which were ground-related mishaps. Collectively, these mishaps 
resulted in the loss of mission capable aircraft available to 
contribute to combat readiness. This upward trend in Class C mishaps 
prompted us to initiate the Aviation Related Ground Mishap (ARGM) 
Independent Readiness Review. The ARGM IRR identified root causes and 
delivered actionable recommendations that enable Marine Corps Aviation 
to address and reduce the aviation ground mishap rate, preserve 
aviation assets, and fulfill its training and readiness requirements. 
The study found that the rise in aviation ground mishaps is a 
consequence of a less-than optimal maintenance culture shift engendered 
by post-9/11 high tempo operations and are one of many variables that 
are depressing Ready Basic Aircraft rates in Marine Corps aviation. The 
ARGM IRR identified 44 recommendations from which Marine Aviation 
developed 54 actionable initiatives to address the ARGM findings. To 
date, roughly 45% of these initiatives are either complete or ongoing, 
and we will continue to refine and implement the safety initiatives 
over the next 12 months. Examples include:
    Standardization of Aircraft Towing/Movement: Enhanced Wing-level 
aircraft towing training and supervision is required prior to the 
movement of any aircraft. We have implemented standardized ``spot 
check'' inspections across the Marine Aircraft Wings (MAWs). MAW 
inspections and grading criteria for standardization is under review 
and refinement. In addition, we have implemented a new standardized 
grading criteria for all maintenance programs to improve 
institutionalized program compliance across Marine aviation.
    Advanced maintenance management and compliance training: Marine 
Aviation developed the Advanced Aircraft Maintenance Officer's Course 
(AAMOC) in FY16. The first two classes of Aircraft Maintenance Officers 
graduated the course during FY17. We have also developed the Advanced 
Aircraft Maintenance Management Training (AAMT) for our more senior 
enlisted maintenance Marines, along with the Aircraft Maintenance 
Management Center of Excellence at the Marine Aviation Weapons and 
Tactics Squadron-1 (MAWTS-1) Squadron. To summarize, we are evolving 
the maintenance community culture by refocusing our Marines on better 
supervision, standardization, advanced maintenance training and best 
practices. We are re-enforcing a mindset of maintaining and grooming 
aircraft as we build a healthy and experienced maintenance base capable 
of generating the required readiness for combat.
    Mr. Wilson. In July, a Marine Corps KC-130T crashed during a 
routine flight, killing fifteen Marines and one sailor. The Navy and 
Marine Corps immediately grounded all ``T'' model aircraft--23 Navy and 
12 Marine Corps planes--while investigators determined the cause of the 
crash. I understand that most, if not all, of these aircraft are still 
grounded and that their return to operational status is being hindered 
in part due to limited maintenance capacity. It's our understanding 
that the services have had to shift work among maintenance facilities 
and personnel to accommodate the introduction of the Joint Strike 
Fighter into their fleets. As a result, some older platforms--like the 
C-130--must rely on a single source for maintenance and repair work. 
While I understand that routine, planned and priority aircraft often 
receive adequate support, relying on a single source can understandably 
make it far more difficult to handle work of an unscheduled or 
unpredictable nature--particularly when the maintenance facilities and 
personnel are already facing a full load of regular-scheduled work 
under increasing operations tempo. Please provide a status update on 
maintenance and repair work for the Navy C-130 and Marine Corps KC-130 
fleets.
    General Rudder. Introduction of the Joint Strike Fighter and other 
new platforms have had minimal impact on the downing, repair and 
maintenance of the Marine Corps KC-130T Fleet. The Department of the 
Navy has an inter-service agreement with the Air Force to conduct all 
Navy and Marine Corps C/KC-130T propeller overhauls at Warner-Robbins 
Air Force Base (AFB). The Aircraft Mishap Board (AMB), which is 
ongoing, discovered inconsistencies within the maintenance process at 
Warner-Robins AFB. As a result, the U.S. Air Force initiated a pause in 
production and an overhaul of propellers. This is expected to last at 
least through mid-January 2018. The Marine Corps' ability to resume KC-
130T flight operations is contingent upon the Air Force adequately 
resolving their process and quality issues in order to resume propeller 
production and overhauls. The second subject is in regards to depot 
maintenance capacity at Hill AFB, Utah. The Air Force is dedicating 
Hill AFB to F-35 depot work and transitioning all C-130 depot activity 
to Warner-Robins AFB, Georgia, where Periodic Maintenance Interval 
(PMI) for Air Force C-130s is performed. This transition is scheduled 
to begin in FY18. However, there are multiple alternate locations that 
can perform unscheduled or unpredictable depot maintenance on C-130s. 
For example, unscheduled depot maintenance is performed by Cherry Point 
Fleet Readiness Center, Hill AFB artisans and Warner-Robins AFB 
expeditionary maintenance teams.
    Mr. Wilson. In light of a situation wherein certain work can 
currently be performed at only one location, what steps is the Navy 
aviation community taking to ensure that unscheduled and unpredictable 
work can be completed as quickly as possible? If industry can offer 
additional capacity in times of great need, do you see opportunities 
for the Department of the Navy to leverage this capability to address 
unscheduled maintenance and repair work, which would in turn enable the 
current organic depots the ability to focus on its routine, planned and 
priority aircraft?
    Please address the current and forecasted impacts to Navy, Marine 
Corps, Navy Reserve, and Marine Corps Reserve aviation readiness due to 
the grounding of the C-130 fleet and timeline to effect the required 
repairs.
    General Rudder. We anticipate that it will take over a year to 
fully return all grounded Marine Corps KC-130T aircraft to service. The 
propeller overhaul process is the only process that is currently being 
performed at one location: Warner Robbins Air Force Base (AFB). 
Unscheduled maintenance and repair work is organic through the Warner 
Robins AFB Depot and contracted through Pacific Propeller International 
LLC (PPI). United Technologies Aerospace Systems (UTAS) is the sole 
manufacturer of new blades, which are sent to Warner Robbins AFB and 
PPI for assembly. UTAS has agreed to increase production until the 
Department of the Navy is able to return all aircraft to service. 
Consequently, the Department will use a combination of Warner-Robbins 
Depot work and PPI overhaul and production of new propeller blades to 
return the Fleet to operational capability. Addressing general Depot 
work, the Department utilizes all resources available to perform depot 
work both organically and commercially. As for the impact on operations 
of the Marine Corps Reserve KC-130T fleet, we currently have two 
operational aircraft and expect one more aircraft to be returned to 
flying status by December 12, 2017. For the remainder of the KC-130T 
fleet, we anticipate approximately six more KC-130Ts to be operational 
by May 1, 2018 and all USMC KC-130T aircraft (12 total) operational by 
February 2019.
    Mr. Wilson. The latest projections for rebuilding readiness are 
based on setting the conditions for readiness recovery. Could you 
please provide examples of the fragility of recovery efforts, how 
fiscal year 2017 funding has shown results in recovering readiness, and 
how the fiscal year 2018 will further readiness recovery. Where are 
additional resources still required?
    General Gayler. For Army Aviation, force structure reductions as a 
result of the Budget Control Act and Sequestration require us to 
balance three difficult and often competing risks every single day--
meeting today's high level of global commitments, building and 
maintaining readiness for high intensity conflict scenarios, and 
modernizing the force for the future. Each of these competing risks 
impact Army Aviation readiness. For example, reduced force structure 
and today's high commitment levels for Army Aviation significantly 
challenge our ability to incrementally modernize or upgrade aircraft 
for real-world requirements. This results in a reduction of aircraft 
available for training to operational units, which directly challenges 
our units' ability to train and build readiness. Furthermore, reduced, 
unpredictable, or unavailable funding limits our ability to field units 
with updated equipment such as Aviation Survivability Equipment. This 
is due to our requirement to prioritize delivery to deploying units 
only, which hampers training with these systems across the operational 
force. While we are making progress in building readiness, it will take 
time and predictable and sustained resourcing to get us back on course.
    Fiscal Year 2017 funding and the Request for Additional 
Appropriations (RAA) did provide additional resources which were used 
to procure additional aviation platforms such as UH-60M, AH-64E, and 
Gray Eagle Unmanned Aircraft Vehicles. Additionally, we were able to 
commit resources to Assured Positioning, Navigation, and Timing and 
several Aviation Survivability Equipment needs for active theaters. 
However, operating under a continuing resolution for two-thirds of 2017 
still hampered readiness efforts particularly in two areas: 
modernization and aviation maintenance. Funding via continuing 
resolutions continues to place major modernization programs largely on 
hold, as funds are not available for these critical modernization 
efforts.
    Furthermore, continuing resolutions and incremental funding hamper 
our ability to maintain equipment readiness, as it often results in 
highly variable and unpredictable demand for aviation parts. This 
impact is felt at the unit level where limited funds can restrict the 
purchase of large dollar aviation parts, which results in deferred 
maintenance practices. Deferring maintenance directly reduces the 
number of aviation platforms available for training, which hampers 
readiness efforts.
    Lastly, while it is important to note that funding levels are 
important to Army Aviation's rate of readiness recovery, a return to 
predictable and sustained resourcing is more essential to ensure that 
our recovery is continued and enduring.
    Fiscal Year 2018 accounts are programmed to receive increased 
funding from Fiscal Year 2017 levels, and this level of resourcing will 
improve our readiness recovery. Fiscal Year 2018 flying hour accounts 
are funded at 10.6 flight hours per crew per month for the Active 
Component, 7.0 hours for the Army National Guard, and 6.5 hours for the 
U.S. Army Reserves. Of note, this fiscal year will bring the start of a 
three-year period of increased Aviation Warrant Officer accessions and 
flight school aviator qualifications to generate increased manning to 
the operational force. This critical effort will help alleviate the 
current shortages of Aviation Warrant Officers and enhance readiness 
over time.
    Current funding levels for Army Aviation flying hour programs are 
sufficient to produce platoon-level proficiency which is appropriate 
for counterinsurgency operations in relatively permissive environments. 
As we continue to build readiness and maintain a focus on potential 
adversaries, we will ask for your support to further resource flight 
hour programs to allow Army Aviation units to build and maintain 
proficiency at the company and battalion level--a level of proficiency 
that we must provide our Soldiers to remain prepared for potential 
large scale combat operations.
    Mr. Wilson. Please discuss the current status of Class A, B, C 
mishap rates, underlying causes, trends observed in aviation safety and 
your observations on readiness impacts to mishaps? What steps are you 
taking to mitigate readiness impacts on aviation safety? Indications 
are that Class C/Ground mishaps are on a sharp incline, what actions is 
your service taking to address this increase and are there any early 
indications of common factors?
    General Gayler. Over the past four decades, the Army has 
dramatically reduced the major aviation accident rates. The Army 
Aviation Class A accident rate for Fiscal Year 2017 was 25% below the 
ten-year average rate with Class B and C accident rates consistent with 
ten-year averages. Human error remains the leading causal factor in 
aviation mishaps. In fact, consistent with accidents throughout the 
broader aviation community and historical averages, 76% of all Class A 
accidents in Fiscal Year 17 were determined to be a result of human 
error. Fiscal Year 2017 rates:

    Class A:  .99 accidents per 100,000 flight hours; 10-year rate = 
1.33
    Class B: 1.24 accidents per 100,000 flight hours; 10-year rate = 
1.26
    Class C: 5.57 accidents per 100,000 flight hours; 10-year rate = 
5.27

    In a continuous effort to mitigate risk to aviation operations, we 
identify and monitor several trends that have been prevalent in our 
recent aviation mishaps. The first mishap trend centers on an increase 
in flight training conducted at low altitudes, as these operations have 
inherently higher risk than high-altitude flight. Aviator proficiency 
maneuvering at low-altitudes is essential to defeating the significant 
radar threats we anticipate in any future high intensity conflict. 
Second, high intensity conflict scenarios require collective-level 
proficiency beyond platoon level--a level that was more appropriate for 
counterinsurgency operations. In shifting our training focus to high 
intensity conflict environments, we add complexity to mission training 
as it must be executed at echelons above the team and platoon level.
    We have not witnessed any direct correlation between readiness 
levels and aviation mishap rates. We have, however, experienced a 
decline in flight hours executed over the past several years. While we 
cannot draw a direct correlation between reduced flight hours and our 
current mishap rates, I share the sentiment recently expressed by 
Secretary Mattis when he commented that it would be ``hard to believe 
that we could reduce flying hours and not have a less capable force.''
    Army Aviation units mitigate risk consistent with the manner 
practiced by the greater Army community--through engaged and decisive 
leadership. However, rigorous and realistic training conducted 
repeatedly is the single greatest risk mitigation that leaders can 
provide their Soldiers, as it results in improved aviator proficiency 
and confidence and produces higher readiness levels. We remain focused 
on several efforts that will enable units to more effectively train 
their formations and improve their overall readiness which, in turn, 
should positively impact unit safety.
    First and in line with recommendations made by the Holistic Army 
Aviation Task Force (HAATF) assessment, we are implementing several 
initiatives to improve Army Aviation maintenance. Institutionally, we 
have developed a standardized Aviation Maintenance training program and 
also refined the roles and requirements of aviation maintainers, two 
efforts that will positively impact aviation readiness. Additionally 
and also consistent with HAATF recommendations, we are improving our 
maintenance storage facilities to reduce corrosion effects on aviation 
parts. These efforts will translate into higher aircraft operational 
readiness rates over time and provide units with more aircraft 
available for training, thus improving readiness across the force.
    A second institutional effort to highlight centers on improving 
training throughput at Fort Rucker to increase the annual production of 
Army Aviation Warrant Officers (an over 25% increase over the next 
three years). This initiative will help reduce manning shortages across 
the operational force to better enable training and improve overall 
readiness across the force.
    2017 Army Aviation Class C mishap rates were slightly above the 
ten-year average. We did not, however, observe any significant common 
factors regarding these mishaps. As a branch, Army Aviation is 
mitigating this risk through executing rigorous and realistic training 
with increased frequency.
    Fiscal Year 2017 saw an increase in on-duty Class A ground mishaps 
from the previous year, while experiencing a decline in overall 
fatalities. Overall, Class A on-duty ground mishap rates have remained 
relatively constant over the past five years, while Soldier on-duty 
ground fatalities were the lowest over the past five years. Operating 
or riding in a motor vehicle produces the highest number of Class A 
ground mishaps and also results in the most on-duty Soldier fatalities. 
We continue to mitigate this risk through engaged and decisive 
leadership at all leader levels throughout our formations.
                                 ______
                                 
                  QUESTIONS SUBMITTED BY MRS. HARTZLER
    Mrs. Hartzler. Just last week it was reported that several drones 
were observed over Whiteman Air Force Base. Recently the A-C-C 
commander General Holmes stated the need for the authority to better 
defend against small drones. Even these small drones could cause 
significant damage or worse, the loss of one of our Airmen and the 
aircraft. I am wondering how the Air Force is perceiving and addressing 
this problem.
    a. Have there been any other instances of near collisions between 
small UAS and Air Force aircraft?
    b. Do you see this as a potential impact to flying operations and 
readiness?
    c. Do you think the Air Force has the proper authorities and 
equipment to detect, track, monitor, and mitigate this threat to our 
national assets?
    General Nowland. My counter small UAS team is available to meet 
with your staff to discuss any of these issues in greater detail in a 
classified environment. The Air Force perceives the emergence of small 
drones as both a force protection and a flight safety concern. As such 
we have stood up a team to examine, develop and coordinate solutions 
across the Air Force and in collaboration and coordination with our 
Sister Service and Interagency partners.
    Have there been any other instances of collisions or near 
collisions between sUAS and Air Force aircraft?
    Drone operations (small Group 1 or 2 unmanned aerial systems 
weighing less than 55 pounds, aka sUAS), remain a concern for Air Force 
operations and flight safety. Within the last year, we have taken 
measures to increase awareness and improve reporting through various 
public affairs initiatives and policy guidance. As such, we are seeing 
an increase in reports and sightings around airfields and air 
operations. We think this is a combination of increased proliferation 
throughout the general populace, ideal operating environments around 
airfields, and increased emphasis on reporting. As for specific 
instances of collisions with Air Force aircraft, we have been very 
fortunate not to experience any. However, our sister service (Army) had 
at least one collision incident with a helicopter that we know of in 
New York. There are several instances where drones have affected our 
ability to conduct operations. Although our interagency partners, 
especially the Federal Aviation Administration (FAA), have been very 
supportive of the Air Force with the establishment of Special Security 
Instructions and Temporary Flight Restrictions over Air Force 
installations and Congress is supportive of the Air Force's national 
defense functions, the legislative restrictions, authorities, and 
enforcement options have not completely curtailed incidents. The most 
recent incident was at Whiteman AFB, MO where a couple of drones were 
observed during a national level exercise which resulted in 
precautionary measures that delayed operations for several hours. Other 
incidents of drones impacting flight operations are at our flight 
training bases.
    Do you see this as a potential impact to flying operations and 
readiness?
    Yes. The impact to flying operations is consistent across both the 
military and civil operations especially in vicinity of airports and 
airfields. The safety issue, although a FAA responsibility, impacts the 
most critical phases of flight, specifically takeoff and landing. 
Unfortunately, the ability to regulate and enforce the approach and 
departure corridors is a subject the interagency and the Department 
recognize as an important issue but we are awaiting FAA guidance on how 
to enforce and enhance airspace integrity and flight safety. The Air 
Force has been focused on protecting assets and resources within our 
installation boundaries. As such the FAA has effectively collaborated 
with the Air Force and Department of Defense as a whole to establish 
special security restrictions, prohibiting drone operations within 
military installation boundaries.
    Do you think the Air Force has the proper authorities and equipment 
to: detect, track, monitor, and mitigate this threat to our national 
assets?
     Authorities: The Air Force appreciates Congressional support to 
expand appropriate 10 USC 130i authorities to all of our installations 
and bases. We are thankful that Congress expanded Department of Defense 
authorities through the FY18 NDAA by including additional covered 
missions such as Special Operations; Major Test and Range Facility 
Bases; Air Defense; Presidential Support; and Critical Infrastructure. 
However, there is still a gap that will need to be addressed, involving 
vital Air Force missions, such as airlift and training (at our pilot 
training bases, for example). The Air Force and the Department of 
Defense appreciates Congressional support to ensure ``hobby drone'' 
consumers and operations are aligned to meet more stringent FAA 
guidelines (such as revised definitions and delineations between manned 
and unmanned aircraft and those guidelines imposed on ``commercial 
drone operators'', such as Amazon) in order to ensure flight safety, 
especially in the vicinity of active flight operations. Our overseas 
locations are limited in similar, complex ways and that varies country 
to country based on international agreements and host nation policies. 
NOTE: Whiteman AFB is covered by current legal authorities under 10 USC 
130i.
    Equipment: Our Air Force is working to rapidly acquire commercial-
off-the-shelf technologies to fill those equipment requirements. We 
have prioritized our most urgent missions at home and abroad to receive 
the first technologies and available systems. From there, we will 
continually evaluate industry innovations for scalable, cost-effective 
solutions that meet Air Force needs and can adapt to an evolving 
threat. Due to complex legal and policy restrictions at most 
installations at home and abroad, the technologies often required to 
accomplish tracking and mitigation could exceed our current ability to 
employ them, so we are taking a methodical approach to fielding 
systems.
    Mrs. Hartzler. We talk frequently about the fighter pilot 
shortfall, but we don't discuss the manning shortfalls in the bomber 
community. I am proud to have Whiteman Air Force Base in my district, 
which is the model example of the Air Force's Total Force Integration. 
It is home to both active and guard bomb wings that work side-by-side 
on a daily basis. Despite the active and guard integration, they are 
still facing manning shortfalls. We see the shortfalls not only among 
the pilots, but among the maintainers. These are the individuals who 
work hard to ensure the B-2 maintains its L-O capability. In order to 
keep up with the high demand for the B-2, the men and women at Whiteman 
are working smarter and staying resilient.
    What is the Air Force doing to address this manning shortfall?
    General Nowland. Our pilot shortage is most severe in the fighter 
community (1,005 RegAF/1,276 TF). By comparison, we are short 135 
bomber pilots (135 RegAF/158 TF). That represents an overall RegAF 
manning of 73% (fighter pilot) and 85% (bomber pilot). Although bomber 
pilot manning is better than fighter pilot manning, we are concerned 
that bomber pilots experienced a more significant % drop in manning 
inventory in FY17 than the fighter pilot inventory. Whiteman AFB 
maintains pilot manning at 98-100% manning throughout the year, and do 
to the sensitive and unique nature of B-2 operations, typically enjoys 
better manning than other bomb squadrons throughout the Air force.
    Furthermore, to address the overall shortfall, the Aircrew Crisis 
Task Force has seven ongoing lines of effort working solutions that 
address pilot requirements, accessions, production, absorption, 
retention, sortie production, and industry collaboration to address 
what we believe is the leading edge of national pilot shortage. 
Specifically, the pilot shortage requires careful coordination across 
the service to increase our ability to produce more pilots without 
creating bottlenecks in the pipeline. In the near term, the Air Force 
must retain aviators to grow its future force, but the only way to 
recover from the pilot shortfall is to produce more pilots by 
increasing the capacity of the production pipeline.
    Mrs. Hartzler. What is the Air Force doing to ensure that we not 
only have enough bomber pilots and maintainers, but that we are able to 
retain these highly skilled individuals?
    General Nowland. Bomber pilots will benefit from the 66 different 
retention initiatives the Air Force is currently working to improve 
quality of service, work/life balance, and monetary compensation for 
aircrew members. For example, each Whiteman AFB bomb squadron gained 5 
administrative contractors in November 2017 to execute scheduling, 
deployment management, training, and other key functions that are 
critical to the mission but do not require pilot expertise to 
accomplish. This action decreases the amount of time the pilots have to 
remain at the squadron and allows them to recapture some of the white 
space on their calendar and make investments in personal development. 
We believe initiatives like these will allow us to improve upon the 44% 
FY17 bomber pilot aviation bonus ``take rate'' in the coming years.
    As for maintainers, we were approximately 4,000 aircraft 
maintainers short a couple years ago. Thanks to approval from Congress 
to grow our end strength, we've been able to largely recover from that 
deficit and are only short 400 maintainers today. Although it will take 
3-5 years for these maintainers to achieve the desired experience 
levels to be considered ``healthy'' again, having more hands to do the 
work will have a dramatic impact on the retention of existing 
maintenance personnel.
    Despite our best efforts, retention of highly skilled personnel 
will continue to be a challenge due to the size of our force, the 
unrelenting demand for airpower around the world, and the draw of 
higher pay and stability that comes from civilian life in a good 
economy.
                                 ______
                                 
                    QUESTIONS SUBMITTED BY MR. BROWN
    Mr. Brown. Joint Base Andrews supports contingency operations in 
the capitol region, including support of nuclear missile sites, using 
UH-1N helicopters. Majority of these aging Hueys are from the Vietnam 
era, and these aircraft do not meet the full scope of current 
requirements for range, payload, and speed for continuity operations 
(Andrews) or nuclear response (other base) missions.
    They should have been replaced long ago, and today we are dealing 
with critical threats to our national security. Can you tell us about 
the condition and state of readiness of the Hueys currently flying this 
mission?
    General Nowland. Summary:
    Readiness of the UH-1N community can be further addressed in a 
classified medium. In general, the UH-1N fails to meet mission (speed, 
payload, range) requirements and the community faces challenges due to 
pilot and special mission aviator shortages.
    a. Air Force Global Strike Command:
    The Air Force Global Strike Command retains 23 of the 63 UH-1Ns 
within the Air Force equating to 37% of the total aircraft inventory. 
It is expected that these aircraft will become increasingly difficult 
and expensive to maintain. United States Strategic Command deemed the 
current UH-1N not effective for many missions it supports and falls 
short of key operational requirements. The Department of Defense will 
continue to take action necessary to mitigate UH-1N capability 
shortfalls.
    b. Air Force District of Washington:
    The Air Force District of Washington concurs that the UH-1N does 
not meet requirements for range, payload, and speed. All questions 
regarding status of the UH-1N fleet are deferred to Global Strike 
Command as the lead Major Command for the UH-1N. The Air Force District 
of Washington retains 22 of the 63 UH-1Ns within the Air Force equating 
to 35% of the total aircraft inventory.
    Mr. Brown. Also, could you provide an update on the Huey 
Replacement Program and give the committee assurances that the program 
will not face further delays and is on track for an award in the 3rd 
Quarter of 2018?
    General Nowland. The Air Force is currently in source selection for 
the UH-1N Replacement and expects contract award in the 3rd Quarter of 
fiscal year 2018.

                                  [all]

</pre></body></html>
